<html>
<title> - THREATS TO FEDERAL LAW ENFORCEMENT OFFICERS</title>
<body><pre>[Senate Hearing 106-1009]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1009

              THREATS TO FEDERAL LAW ENFORCEMENT OFFICERS

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON CRIMINAL JUSTICE OVERSIGHT

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2000

                               __________

                          Serial No. J-106-84

                               __________

         Printed for the use of the Committee on the Judiciary

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-137                     WASHINGTON : 2001


                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman
STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire
             Manus Cooney, Chief Counsel and Staff Director
                 Bruce A. Cohen, Minority Chief Counsel
                                 ------                                

               Subcommittee on Criminal Justice Oversight

                STROM THURMOND, South Carolina, Chairman
MIKE DeWINE, Ohio                    CHARLES E. SCHUMER, New York
JOHN ASHCROFT, Missouri              JOSEPH R. BIDEN, Jr., Delaware
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               PATRICK J. LEAHY, Vermont
                     Garry Malphrus, Chief Counsel
                    Glen Shor, Legislative Assistant


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page
Leahy, Hon. Patrick, a U.S. Senator from the State of Vermont, 
  prepared statement.............................................    31
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    23
Thurmond, Hon. Strom, a U.S. Senator from the State of South 
  Carolina.......................................................     1

                               WITNESSES

Ledwith, William E., Chief, Office of International Operations, 
  U.S. Drug Enforcement Administration, U.S. Department of 
  Justice, prepared statement....................................    10
Saleeba, David A., Special Agent in Charge, Intelligence 
  Division, U.S. Secret Service, prepared statement..............    15
Stephens, Andreas, Section Chief, Violent Crime and Major 
  Offenders Section, Federal Bureau of Investigation, prepared 
  statement......................................................     3
Varrone, John C., Acting Deputy Assistant Commissioner, Office of 
  Investigations, U.S. Customs Service, prepared statement.......    18

                                APPENDIX
                 Additional Submissions for the Record

Calloway, Mark T., U.S. Attorney, Western District of North 
  Carolina, letter...............................................    39
DEA Agents and Employees Killed in the Line of Duty..............    41
Letter to Attorney General Reno from Senators Sessions and 
  Thurmond.......................................................    39
Raben, Robert, Office of the Assistant Attorney General, U.S. 
  Department of Justice, letter and attachment...................    37

 
              THREATS TO FEDERAL LAW ENFORCEMENT OFFICERS

                              ----------                              


                         TUESDAY, MAY 16, 2000

                               U.S. Senate,
        Subcommittee on Criminal Justice Oversight,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 1:56 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Strom 
Thurmond (chairman of the subcommittee) presiding.
    Also present: Senator Sessions.

 OPENING STATEMENT OF HON. STROM THURMOND, A U.S. SENATOR FROM 
                  THE STATE OF SOUTH CAROLINA

    Senator Thurmond. The subcommittee will come to order.
    Only a few blocks from here, a solemn annual ceremony is 
taking place this week. Local, State and Federal law 
enforcement officials are gathering at the National Law 
Enforcement Officers Memorial to pay tribute to 280 individuals 
who lost their lives in the line of duty since last year's 
ceremony. In total, there are more than 14,000 names on the 
memorial, a sad reminder of just how dangerous the law 
enforcement profession is.
    I think it is safe to say that most people associated 
violence against law enforcement officials as attacks on 
uniformed personnel of police departments, sheriffs' offices, 
State police departments, and highway patrols. Unfortunately, I 
believe that there is a commonly held belief that the risks 
Federal enforcement personnel face is minimal. This is simply 
not correct.
    To begin with, few realize that the U.S. Government has a 
significant number of uniformed officers that serve with 
agencies including the Border Patrol, Park Police, Bureau of 
Prisons, and Customs Service. These men and women expose 
themselves to risk day in and day out as they conduct their 
duties.
    I have heard reports that it is considered sporting--I 
repeat, sporting--to sit on the Juarez side of the Rio Grande 
River and take pot shots at Border Patrol agents protecting the 
sovereign boundary of the United States. Earlier this spring, a 
U.S. Park Police officer was seriously wounded when a routine 
traffic stop performed in the District of Columbia became a 
firefight. And Bureau of Prisons officers are routinely 
assaulted, hardly unexpected given the population with whom 
they are dealing.
    Additionally, Federal agents are facing increasing risks as 
they become more involved in fighting crimes where violence is 
just part of a criminal's way of doing business. I doubt that 
any Federal agent has forgotten the cold-blooded abduction, 
torture, and execution of Kiki Camarena by Mexican 
narcotraffickers. Sadly, the potential for that to happen again 
today is not beyond the realm of possibility.
    Drug dealers have little regard for the lives of anyone 
other than themselves and willingly use violence as a method of 
discipline, enforcement, and retribution. Outside the United 
States, criminal enterprises are forming alliances with 
terrorist groups, paramilitaries, and outlaw governments, all 
of which significantly increase the dangers our agents face 
when they are attempting to battle international crime.
    Given that this is Police Week, this hearing on threats 
against Federal law enforcement officials is especially timely. 
The men and women who serve in Federal law enforcement have 
chosen an unsung career path, and it is important that we let 
the public know the sacrifices and dangers being borne by these 
dedicated and selfless individuals.
    Furthermore, I hope that through actions such as this 
hearing, those who do serve in federal law enforcement 
recognize that they have friends and supporters in Congress. 
Finally, as a matter of oversight, this subcommittee must 
ensure that agencies are doing all they can to train their 
personnel in officer safety tactics, as well as to protect 
these men and women when they are serving in the field.
    When attacks against federal enforcement officials do take 
place, those responsible must be prosecuted by the U.S. 
attorney's office. We should leave no question in the minds of 
criminals as to the consequences of committing an act of 
violence against a Federal agent. To do otherwise is to send a 
signal that is unacceptable in this era of escalated violence 
and threats to those who work as enforcement officials.
    Now, I am pleased to welcome each of our witnesses: Mr. 
Andreas Stephens, Section Chief, Violent Crime and Major 
Offenders Section, Federal Bureau of Investigation; Mr. William 
E. Ledwith, Chief, Office of International Operations, U.S. 
Drug Enforcement Administration; Mr. David Saleeba, Special 
Agent in Charge, Intelligence Division, U.S. Secret Service; 
and Mr. John C. Varrone, Acting Deputy Assistant Commissioner, 
Office of Investigations, U.S. Customs Service.
    The agencies that these gentlemen represent are involved in 
fighting crime both domestically and abroad, and are well 
qualified to paint a picture of the challenges, threats, and 
dangers that Federal enforcement officers face in discharging 
their duties.
    Gentlemen, we appreciate your taking the time to appear 
before us this afternoon. As I am eager to get to our rounds of 
questioning, I ask each of you to please limit your opening 
statements to as brief as possible. We are, of course, more 
than happy to enter your entire statement into the record.
    Thank you, and we will start with the testimony of Mr. 
Stephens.

 PANEL CONSISTING OF ANDREAS STEPHENS, SECTION CHIEF, VIOLENT 
     CRIME AND MAJOR OFFENDERS SECTION, FEDERAL BUREAU OF 
   INVESTIGATION, WASHINGTON, DC; WILLIAM E. LEDWITH, CHIEF, 
   OFFICE OF INTERNATIONAL OPERATIONS, U.S. DRUG ENFORCEMENT 
  ADMINISTRATION, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC; 
    DAVID A. SALEEBA, SPECIAL AGENT IN CHARGE, INTELLIGENCE 
  DIVISION, U.S. SECRET SERVICE, WASHINGTON, DC; AND JOHN C. 
   VARRONE, ACTING DEPUTY ASSISTANT COMMISSIONER, OFFICE OF 
      INVESTIGATIONS, U.S. CUSTOMS SERVICE, WASHINGTON, DC

                 STATEMENT OF ANDREAS STEPHENS

    Mr. Stephens. Good afternoon, Mr. Chairman and members of 
the subcommittee. I am pleased to appear before you today to 
discuss the Federal Bureau of Investigation's role in 
investigating assaults, threats, and the killing of Federal 
employees.
    The men and women who enlist in Federal law enforcement are 
exceptional and dedicated individuals who bring unique skills 
and diverse life experiences. Many have foregone the potential 
benefits of private sector employment in order to pursue the 
path of public service. They have chosen this career 
recognizing the inherent risks involved in law enforcement.
    We as agencies highly value their commitment and service, 
and endeavor to adequately prepare them for law enforcement by 
providing the tools and support they need to do the job and by 
giving them the skills and training necessary to minimize and 
manage the risks. Unfortunately, we are not able to eliminate 
all risks associated with law enforcement, but we will continue 
to strive for that goal.
    The scope of the FBI's investigative responsibility is 
broad. Historically, the delegation of investigative 
responsibilities by the Department of Justice has delegated to 
the FBI the investigative responsibility in the assaults, 
threats, and killings of all Federal employees and immediate 
family members, unless the victim is employed by the Department 
of the Treasury or the U.S. Postal Service.
    The safety and security of all Federal employees and their 
family members is a top priority of the FBI. Each reported 
incident is aggressively pursued and referred to the Department 
of Justice for prosecutive consideration. In those instances 
where the FBI acts as the primary investigative agency, 
coordination is closely established with the victim employee's 
agency. The FBI recognizes that each threat creates tremendous 
strain on the victims and their families, and therefore 
requires and receives appropriate attention.
    The number of assaults against Federal officers has 
remained relatively constant over the past few years. Between 
1994 and 2000, the FBI initiated 4,234 investigations involving 
threats or assaults of Federal officers and employees. On 
average, the FBI investigates 650 violations per year regarding 
the threats. The majority of the threats that are investigated 
involve law enforcement officers, prosecutors, and judges. 
Since 1994, the FBI has investigated 916 cases in which a 
Member of Congress was threatened or assaulted.
    According to the Uniform Crime Reports, Federal officers 
are most likely to be assaulted while encountering crimes in 
progress, conducting investigations, or making arrests. In the 
majority of instances, Federal officers are assaulted with 
personal weapons, such as hands, fists or feet, and in 14 
percent of all cases a firearm was used.
    When a Federal employee is assaulted or killed, it is 
imperative that the case be aggressively and expeditiously 
investigated. Coordination is immediately established with the 
appropriate Federal, State, or local law enforcement agency, in 
addition to the U.S. attorney's office. The victim and any 
witnesses are immediately interviewed for relevant information. 
Where appropriate, crime scene investigators are dispatched to 
collect evidence. The FBI employs its full arsenal of 
investigative techniques, including electronic and physical 
surveillance, search warrants, and Federal grand jury 
subpoenas. The case is ultimately presented to the Department 
of Justice for prosecutive opinion.
    When the FBI receives information that a Federal employee 
has been threatened, the victim is immediately notified of the 
threat. In instances where the threat is reported by a 
cooperating defendant or an informant, a polygraph examination 
is often considered to determine the credibility of the threat. 
The victim employee's agency is notified, as is any agency 
having protective responsibility; for example, the U.S. 
Marshals Service and the U.S. Secret Service. Similarly, any 
investigation regarding threats against a Member of Congress is 
closely coordinated with the U.S. Capitol Police.
    The FBI does not have protective responsibility, except for 
the Attorney General and cases where the victim is an FBI 
employee. Various security measures are taken as the 
circumstances dictate and a threat assessment is immediately 
conducted. In order to prepare our people to resolve these 
threats, we have provided a wide range of training and tactical 
skills for our agents during their new agent training. These 
include firearms offensive tactics; interview techniques; 
arrest, search and raid planning; cultural awareness; and legal 
issues.
    After attending the FBI Academy, in order to increase 
safety awareness we train agents in techniques designed to 
avoid assaults, and the FBI has developed the Law Enforcement 
Training for Safety and Survival Program. It is noted that this 
training is provided for field investigators, as opposed to the 
highly specialized training provided to tactical operators, 
such as our SWAT and Hostage Rescue Team.
    The law enforcement training survival program provides an 
excellent opportunity for us to introduce new safety 
techniques, as well as to reinforce traditional concepts to 
experienced investigators, Federal and local alike. The funding 
for tactical training of street agents is through the Safe 
Streets and Safe Trails Task Force initiatives. The FBI 
sponsors 174 Safe Streets and Safe Trails Task Forces in 54 of 
our 56 field offices. The task forces include approximately 
1,000 State and local law enforcement officers, 805 FBI agents, 
and 251 law enforcement officers from other Federal agencies. 
All State and local task forces are deputized Federal officers 
under Title 18 or Title 21 of the United States Code.
    This training that I previously mentioned is afforded to 
violent crimes task force investigators only. During fiscal 
year 1999, the FBI through this initiative provided survival 
training to 715 Federal, State, and local law enforcement 
officers. The FBI encourages aggressive Federal prosecution of 
those who threaten Federal employees. Generally speaking, these 
cases are considered on a case-by-case basis, and Federal 
prosecutors may require actual injury or substantial overt acts 
before prosecuting a case in which a law enforcement officer is 
a victim. Agents and officers who carry firearms and possess 
arrest powers are often viewed as somewhat less vulnerable than 
prosecutors, judges, and elected officials.
    Although the number of investigations has remained 
relatively constant, the nature of these incidents has changed 
in recent years. Some of the factors from the FBI's perspective 
include the expanded role in anti-violence initiatives, 
international investigations, and the increasing use of the 
Internet in furtherance of criminal activity.
    Regarding international investigations, the FBI's 
involvement in international investigations has brought 
credibility to complicated multi-national investigations, with 
many successes. Unfortunately, these investigative successes, 
along with world events, have increased the risk of harm to FBI 
agents by criminal elements.
    In order to address these increased risks, the FBI's 
International Operations Section has designed a briefing 
program to inform employees about security related to 
international assignments. One of our responsibilities is to 
respond to extraterritorial terrorist incidents. Our evidence 
response teams and rapid deployment teams are dispatched to 
critical events when directed by the Attorney General in 
furtherance of that extraterritorial jurisdiction. As these 
deployments continue, the likelihood and potential of assaults 
on FBI employees overseas increases.
    The same thing happens with the anti-government groups and 
militia efforts that have been occurring domestically. These 
incidents reflect the types of threats that are more and more 
being encountered by agents in our domestic terrorism 
investigations. The subjects in these cases are clearly 
motivated by a desire to discourage law enforcement from 
continuing its investigations.
    The FBI's violent crimes program has been closely 
coordinating with our technical components regarding threats 
conveyed via the Internet. Although this is a recent initiative 
and statistical data has not been compiled, our preliminary 
review of FBI field office statistics revealed a total of 22 
investigations initiated in fiscal year 2000.
    Senator Thurmond. Could you wrap up your statement, the 
remainder of which will be put in the record?
    Mr. Stephens. Yes, sir.
    I want to thank the committee for giving me the opportunity 
to testify here today. The increased risk of assaults on 
Federal officers is real and growing, and I welcome any 
questions.
    Thank you.
    [The prepared statement of Mr. Stephens follows:]

                 Prepared Statement of Andreas Stephens

    Good afternoon, Mr. Chairman and members of the subcommittee. I am 
very pleased to appear before you today to discuss the Federal Bureau 
of Investigation's (FBI's) role in investigating assaults, threats and 
the killing of federal employees. Through the delegation of 
investigative responsibilities by the Department of Justice (DOJ), the 
FBI has primary jurisdiction in all assaults, threats and killings of 
federal employees, unless the victim is a member of the Department of 
the Treasury (DOT). Pursuant to an October 2, 1956, agreement, the DOT 
has investigative jurisdiction over assaults, threats and killings of 
its personnel. Additionally, pursuant to a Department of Justice (DOJ) 
policy directive dated 3/5/74, the United States Postal Service (USPS) 
has primary jurisdiction for assaults, threats, and killings of its 
employees if the offender is also employed by the USPS.
    The FBI investigates assaults, threats and killings of federal 
employees pursuant to Title 18 U.S.C. Sections 111 (Assaulting, 
Resisting or Impeding Certain Officers or Employees); 115 (Influencing, 
impeding, or retaliating against a Federal Official by threatening or 
injuring a family member); 1111 (Murder); 1112 (Manslaughter); 1114 
(Protection of officers and employees of the United States); 1116 
(Murder or manslaughter of foreign officials, official guests, or 
internationally protected persons); 1117 (Conspiracy to murder in 
violation of Section 1114); 2231 (Assault or resistance); and 
1201(a)(5) (Kidnapping in violation of 1114). Additionally, U.S. 
Supreme Court Justices, members of Congress, and the heads of executive 
branch departments are afforded protection under Title 18 U.S.C. 
Sec. 351 (Congressional, Cabinet, and Supreme Court Assassination, 
Kidnapping, and Assault).
    The safety of all federal employees and their family members is a 
top priority of the FBI. For the purposes of this hearing, the term 
``federal employee'' includes the class of employees defined by Title 
18 U.S.C. Sec. 1114, ``any officer or employee of the United States or 
of any agency branch of the United States Government (including any 
member of the uniformed services) while such officer or employee is 
engaged in or on account of the performance of official duties.'' Each 
reported incident is aggressively pursued and referred to the 
Department of Justice for prosecutive consideration. In those incidents 
where the FBI as the primary investigative agency, coordination is 
closely established with the victim employee's agency. Nevertheless, 
each threat creates tremendous strain on the victims and their 
families, and therefore requires and receives appropriate attention.
     number of assaults on federal officers investigated by the fbi
    The Uniform Crime Reports (UCR) 1994 through 1998 reflect that 
federal agencies reported assaults against 3610 employees, resulting in 
1033 injuries. During this same period, 24 federal law enforcement 
officers were slain in the line of duty, as follows:

INS Agent.........................................................     5
FBI Agents........................................................     4
Secret Service Agents.............................................     4
Bureau of Indian Affairs Officers.................................     4
DEA Agents........................................................     2
U.S. Customs Agents...............................................     2
Capitol Police Officers...........................................     2
National Park Service Ranger......................................     1
Housing and Urban Development.....................................     1

    In 1999, the FBI initiated 585 investigations regarding assaults 
against federal employees. During that year, two officers were slain in 
the line of duty. These cases involved the 12/9/1999 murder of a Bureau 
of Indian Affairs Officer, in Whiteriver, Arizona and the 12/12/1999 
murder of a Department of the Interior, National Park Service Officer, 
in Kailua-Kona, Hawaii.
    During the first half of fiscal year 2000, the FBI has initiated 
286 Assault on a Federal Officer (AFO) investigations. Since 1994, the 
FBI has initiated 4,234 investigations that involved a federal officer 
being assaulted, threatened or killed. Federal officers were killed in 
26 of these cases. To date, 675 individuals have been convicted as a 
result of these investigations.
    Since 1994, the FBI has investigated 916 cases in which a member of 
Congress was threatened or assaulted. These investigations have 
resulted in 25 convictions.
    The FBI currently employs 11,583 Special Agents. Since 1997, FBI 
Agents have occasionally been confronted with circumstances requiring 
the use of deadly force. Since 1997, FBI Agents discharged their 
firearms during 52 incidents involving an adversarial contact with a 
subject. The numbers are set forth below:

----------------------------------------------------------------------------------------------------------------
                                                                                SA  injured/    Subject  injured/
                           Year                                  Number            killed            killed
----------------------------------------------------------------------------------------------------------------
1997......................................................                16                 0                12
1998......................................................                10                 0                 6
1999......................................................                11                 0                 5
2000......................................................                 5                 0                 5
----------------------------------------------------------------------------------------------------------------

    Following a shooting, the FBI requires the involved Special Agent 
to attend a critical incident stress debriefing with a trained Special 
Agent counselor who has been involved in a similar incident.

        ACTIVITY RESULTING IN ASSAULTS AGAINST FEDERAL OFFICERS

    According to the Uniform Crime Reports, federal officers aremost 
likely to be assaulted while encountering crimes in progress, 
conducting investigations, or making arrests. In the majority of 
incidents, federal officers are assaulted with personal weapons such as 
hands, fist or feet. In fourteen percent of all cases, a firearm was 
used. Since 1989, 682 state, local and federal law enforcement officers 
have been killed in the line of duty. Of these officers, 239 were slain 
during arrest situations, a total of 35 percent. Ninety-two percent 
were killed with firearms.

           FBI RESPONSE TO ASSAULTS AGAINST FEDERAL EMPLOYEES

    When a federal employee is assaulted or killed, it is imperative 
that the case be aggressively and expeditiously investigated. 
Coordination is immediately established with appropriate state, local 
and federal law enforcement agencies, in addition to the United States 
Attorney's Office. The victim and any witnesses are immediately 
interviewed for relevant information. Where appropriate, crime scene 
investigators are dispatched to collect evidence. The FBI employs its 
full arsenal of sophisticated investigative techniques, including 
electronic and physical surveillance, search warrants and Federal Grand 
Jury Subpoenas. The case is ultimately presented to the Department of 
Justice for prosecutive opinion. The Department of Justice's general 
policy, as stated in the United States Attorney's Manual, is to 
federally prosecute cases in which the victim is an officer or employee 
with law enforcement duties which regularly exposes him/her to the 
public. This policy, with respect to assaults and other forms of 
forcible resistance, provides these employees with a measure of 
security which helps them in the performance of their duties. By 
contrast, unless the circumstances are aggravated, offenses against 
other federal employees are generally referred to a local prosecutor.
    When the FBI receives information that a federal employee has been 
threatened, the victim is immediately notified of the threat. The 
victim employee's agency is notified as is any agency having protective 
responsibility. For example, the United States Marshals Service has 
protective responsibilities with respect to federal judicial officials, 
while the FBI is responsible for the criminal investigation. Similarly, 
any investigating regarding threats against a member of Congress is 
closely coordinated with the U.S. Capitol Police. In order to assist 
the U.S. Secret Service (USSS) in its statutory protective functions, 
the FBI notifies the USSS in cases in which federal employees are 
assaulted or killed.
    The FBI does not have protective responsibility, except for the 
Attorney General and cases in which the victim is an FBI employee. A 
threat assessment is immediately conducted. The threat assessment 
includes a comprehensive background investigation regarding the subject 
or organization that issued the threat. When the identity of the 
offender is unknown, a review is conducted of cases in which the victim 
has participated. Additionally, coordination is established with the 
FBI's National Center for the Analysis of Violent Crime (NCAVC). The 
FBI closely coordinates these investigations with local, state and 
federal law enforcement agencies.
    In cases in which the victim is an FBI employee, a threat 
assessment is conducted and a decision is made whether an immediate 
relocation of the victim is necessary. When necessary, the victim 
employee is relocated to a temporary covert location, while further 
investigation is conducted. Other security measures may include 
installation of security equipment, surveillance, and coordination with 
local law enforcement. Additionally, the victim and his family are 
afforded a security awareness briefing and referred to the Employee 
Assistance Program for necessary support. The FBI submits an Annual 
Expenditure Report to the Office of the Comptroller, Justice Management 
Division, regarding expenses paid for threatened employees.

                  FBI'S ASSISTANCE IN POLICE KILLINGS

    At the request of fellow law enforcement agencies, the FBI 
investigates felonious or accidental deaths of local, state, and 
federal law enforcement officers having full arrest powers, who are 
killed during the performance of their official duties. The FBI 
initiates an investigation to obtain additional details concerning the 
circumstances surrounding the incident. Additionally, the FBI furnishes 
the agency with information concerning two federal programs which 
provide benefits to survivors of law enforcement officers killed in the 
line of duty. The two federal programs include the U.S. Department of 
Labor and the Public Safety Officers' Benefits Program administered by 
the Department of Justice. The FBI Uniform Crime Reporting Sections 
publishes statistics regarding police killings.
    In 1999, 42 federal, state and local law enforcement officers were 
feloniously slain in the line of duty. This is a significant decrease 
from 1998, in which 61 officers were slain, and 1997, in which 70 
officers were slain. In 1999, twelve officers lost their lives during 
arrest situations. Six were serving arrest warrants; three were 
investigating robberies; two were investigating drug-related incidents; 
and one involved a burglary suspect. Additionally, eight officers were 
murdered while enforcing traffic laws, seven were investigating 
suspicious circumstances, seven were answering disturbance calls, six 
officers were ambushed, and two were handling prisoners. Forty-one of 
the 42 officers murdered were slain with firearms.

                                TRAINING

    In order to increase safety awareness, and train agents in 
techniques designed to avoid assaults, the FBI Practical Applications 
Unit, located at the FBI Academy in Quantico, Virginia, has developed 
the Law Enforcement Training for Safety and Survival (LETSS) program. 
It is noted that this training is provided for field investigators, as 
opposed to the highly specialized training provided to tactical 
elements such as SWAT and the Hostage Rescue Team (HRT). This program 
is structured on three essential elements:
    (1) Concepts in Survival.This element introduces and reinforces the 
fact that survivability requires a will to survive. In April, 1986, two 
FBI agents were killed in a shootout with subjects who continued to 
fight long after receiving fatal injuries. The concept in survival 
element establishes that law enforcement officers have the same 
capacity to survive, despite being injured.
    (2) Basic Tactics. Agents are trained in techniques to limit the 
risk of violent encounters. These techniques include methods to 
recognize and approach high risk areas, as well as approach subjects.
    (3) Advanced Techniques. Agents are trained in high risk tactics 
including felony vehicle stops and diffusing violent encounters.
    In addition to presenting schools at the FBI Academy, the Practical 
Applications Unit has trained 300 tactical instructors from the 56 
field offices. These instructors are a crucial resource to the field 
investigators in preparing for high risk encounters. The LETSS program 
provides an excellent opportunity to introduce new safety techniques, 
as well as reinforce traditional concepts to experienced investigators. 
Although this training is essential to the safety of agents, funding 
remains a critical issue. Unlike basic training for new agents, and 
advanced tactical training for SWAT elements, training for street 
agents is not independently funded. In fact, the only funding for 
tactical training of street agents is through the Safe Streets and Safe 
Trails Task Force budgets. The FBI sponsors 174 Safe Streets and Safe 
Trails Task Forces, in 54 of its 56 field offices. The Task Forces 
include 1096 state and local law enforcement officers, 805 FBI Special 
Agents and 251 officers from other federal agencies. All state and 
local Task Force officers are deputized federal officers under Title 18 
and Title 21 of the United States Code. The training is limited to 
violent crime task force investigators.

          PROSECUTION OF SUBJECTS WHO ASSAULT FEDERAL OFFICERS

    The FBI encourages aggressive Federal prosecution of those who 
threaten federal employees. Generally speaking, Federal prosecutors 
require actual injury, or substantial overt acts before prosecuting a 
case in which a law enforcement officer is the victim. Agents and 
officers who carry firearms and possess arrest powers are viewed as 
somewhat less vulnerable than prosecutors, judges and elected 
officials.
    Unfortunately there have been instances in which FBI agents were 
assaulted and prosecution was not authorized. For example, on April 5, 
1999, Special Agents of the FBI and other law enforcement officers 
sought to effect the arrest of a convicted felon. Two marked 
Indianapolis Police Department cruisers activated their emergency 
flashers as an FBI SWAT team approached the house. As agents, armed 
with a warrant, attempted to enter the house, the subject fired two 
rounds, nearly striking one of the agents in the head. The United 
States Attorney's office declined prosecution contending that the 
government could not disprove the defendant's claim of self-defense 
because the defendant allegedly did not realize that law enforcement 
officers were attempting to enter the house. In a letter to the United 
States Attorney for the Southern District of Indiana, FBI Deputy 
Director Thomas Pickard described the decision as ``a failure to 
vindicate the principle that criminals may not use deadly force to 
avoid arrest without facing the severest of consequences.''
    Although the number of investigations has remained relatively 
constant, the nature of these incidents has changed in recent years. 
Some of the apparent factors include the FBI's expanded role in 
international investigations, the proliferation of anti-government 
groups, and the increasing use of the Internet in furtherance of 
criminal activity.

          FBI'S EXPANDED ROLE IN INTERNATIONAL INVESTIGATIONS

    The FBI's involvement in international investigations has brought 
credibility to complicated multi-national investigations, with many 
successes. Unfortunately, these investigative successes, along with 
world events, have increased the risk of harm to FBI Agents by criminal 
elements. In order to address these increased risks, the FBI's 
International Operations Section has designed a briefing program to 
inform employees about security risks related to international 
assignments. The training includes an intensive one week school at the 
FBI Academy regarding surveillance detection, cultural awareness, 
vehicle control, attack recognition, and escape maneuvers. 
Additionally, employees attend a security awareness school sponsored by 
the Department of State regarding environmental hazards, evacuation 
procedures, crisis management, and hostage survival.
    The FBI's Critical Incident Response Group (CIRG) has initiated 
security surveys of the residences and work environment of FBI 
employees assigned to legal attache posts. These surveys include 
analysis of the location, construction, and relative security of 
structures utilized by FBI employees. The CIRG consolidates the FBI's 
crisis management expertise by combining both the tactical and 
negotiations components of an FBI rapid response to a critical 
incident. One of the responsibilities of the CIRG is to respond to 
terrorist incidents. Evidence Response Teams and Rapid Deployment Teams 
are dispatched to critical events when directed by the Attorney 
General, in furtherance of extraterritorial jurisdiction. For example, 
in 1998, the CIRG responded to the U.S. Embassy bombings in Tanzania 
and Kenya. In 1999, the CIRG responded to Kosovo to assist with the war 
crimes investigation by processing alleged mass grave sites for items 
of evidentiary value. As these deployments continue, the likelihood of 
assaults on FBI employees overseas increases.
    On 11/9/1999, an FBI Supervisory Special Agent and a DEA Special 
Agent were assaulted in Matamoros, Tamaulipas, Mexico. The Agents were 
confronted by a group of armed men who pointed weapons at the agents, 
attempted to remove the agents from their vehicle and threatened to 
kill them. During this confrontation, both agents displayed their 
diplomatic passports, and the FBI Agent displayed his FBI credentials. 
After several minutes, the Agents convinced the subjects to let them 
leave. The FBIinitiated an Assault Against a Federal Officer 
investigation. The case is being closely coordinated with the DEA, the 
United States Attorney's Office and Mexican authorities. The FBI is 
confident that the investigation will be brought to a successful 
conclusion.

              INCREASED ACTIVITY OF ANTI-GOVERNMENT GROUPS

    On January 30, 1998, Eric Robert Rudolph fled into the wilderness 
area of Western North Carolina. Rudolph has been charged with four 
bombings, including the July 27, 1996 Centennial Olympic Park Bombing 
in Atlanta. The four bombings resulted in three deaths and over 125 
injuries. The Southeast Bomb Task Force (SBTF) established a command 
post to investigate the bombings, and search for Rudolph. On November 
11, 1998, Veteran's Day, eight shots were fired at the SBTF Command 
Post in Andrews, North Carolina. One round went through an interior 
door and passed over the head of an FBI Agent as he was leaning forward 
in a chair.
    This incident reflects the type of threat confronted by Agents 
involved in Domestic Terrorism investigations. The subjects in this 
case were clearly motivated by a desire to discourage law enforcement 
from continuing its investigation regarding the bombings. In addition 
to acts of violence, several Domestic terrorist groups have purported 
to create their own ``judicial system'' which they use to oppose and 
circumvent lawfully constituted institutions and authorized processes 
in the United States. These ``Common Law Courts'' or ``People's 
courts'', are often used mechanism to impede legitimate law enforcement 
activity by attaching liens against the property of law enforcement 
officers.

                   INCREASED USE OF INTERNET IN AFO'S

    The FBI's Violent Crime Major Offenders (VCMO) Program 
investigators have been coordinating closely with the Computer 
Investigations Unit and National Infrastructure Protection and Computer 
Intrusion (NIPCI) Squads, regarding threats conveyed via the Internet. 
Although this is a recent initiative, and statistical data has not been 
compiled, a preliminary review of FBI Field Office statistics revealed 
a total of 22 investigations initiated in fiscal year 2000, in which 
NIPCI Squads are assisting violent crime investigations. The increase 
in the level of assistance to the (VCMO) Program appears to relate 
specifically to the transmission of threatening communications over the 
Internet, which include threats directed toward government officials. 
This trend has resulted in a barrage of requests from the field offices 
for additional training in responding to threats communicated over the 
Internet. The Violent Crimes/Fugitive Unit is coordinating with the FBI 
Academy to design a training program to train investigators involved 
not only in AFO investigations, but kidnapping, extortions, and murder 
for hire investigations in which the Internet is used.

                               CONCLUSION

    I want to thank the subcommittee for giving me the opportunity to 
testify here today. The increased risk of assaults on federal officers 
is real and growing. The FBI is moving to aggressively meet this 
challenge by training FBI agents and investigators from other agencies 
not only on how to investigate these offenses, but also how to avoid 
becoming a victim. We have already had significant successes in the 
fight. I look forward to working with Congress to ensure that we 
continue to be able to meet the threat as it evolves and grows. Thank 
you.

    Senator Thurmond. Mr. Ledwith.

                STATEMENT OF WILLIAM E. LEDWITH

    Mr. Ledwith. Mr. Chairman, members of the subcommittee, I 
appreciate the opportunity to appear today to speak briefly on 
the threats posed to Federal law enforcement officers. I would 
like first to thank the subcommittee for its continued support 
of the Drug Enforcement Administration and overall support of 
drug law enforcement.
    Drug enforcement is an extremely hazardous occupation. This 
is due to the fact that drug traffickers have no regard for 
civil order, justice, or human life. Their goal is to amass 
large sums of money in order to maintain their obscene and 
lavish lifestyle, free from the boundaries and confines of the 
law. U.S. law enforcement poses the greatest threat to the drug 
traffickers' ability to operate unabated. We have become the 
major stumbling block to them and have therefore voluntarily 
become targets of their criminal violence and ruthlessness.
    Nowhere has this violence become more prevalent than along 
the Southwest border and in Mexico at the hands of Mexican drug 
trafficking organizations. For decades, a number of threats 
have been made against U.S. law enforcement personnel stationed 
in Mexico by Mexican drug traffickers. Some of these threats 
and assaults resulted in serious injury and death.
    One of the most heinous acts of narcoterrorism against DEA 
was the 1985 kidnapping, torture, and murder of DEA Special 
Agent Enrique Camarena. On February 7, 1985, Special Agent 
Camarena and Mexican Captain Alfredo Zavala were kidnapped by 
Mexican drug traffickers from two separate locations in 
Guadalajara, Mexico. On March 5, 1985, the bodies of S/A 
Camarena and Captain Zavala were found in plastic bags lying in 
a field adjacent to a busy road.
    Tape recordings seized by the Mexican military from a 
notorious Mexican drug trafficker confirmed that S/A Camarena 
had been brutally beaten and tortured while being interrogated 
about his knowledge of Mexican drug traffickers and the 
identity of DEA sources of information. Special Agent 
Camarena's brutal murder captured worldwide attention and 
subsequently sparked an international investigation in order to 
bring to justice those individuals responsible for his death. 
The investigation ultimately revealed the involvement of 
corrupt Mexican law enforcement elements, military, and public 
officials.
    Mexican drug trafficking organizations routinely rely on 
violence as an essential tool of the trade. Much of the drug-
related violence which has become commonplace in Mexico has 
spilled over into the United States. Many of these acts of 
violence have been aimed at U.S. law enforcement personnel 
working along or in close proximity to the Southwest border. 
Drug traffickers believe that escape into Mexico represents 
safe refuge from the U.S. law enforcement community, regardless 
of their crime.
    On June 30, 1994, DEA Special Agent Richard Fass of the 
Phoenix Field Division was killed by Mexican drug traffickers 
during an undercover operation in Glendale, AZ. The subsequent 
investigation revealed that Augustin Vasquez-Mendoza, 
identified as the leader of this drug trafficking group, 
orchestrated a plan to steal $160,000 from the undercover 
agent. During the attempted rip-off, S/A Fass was murdered 
while attempting to defend his life and the life of a DEA 
informant. Although four other members of this organization 
were captured and prosecuted, Vasquez-Mendoza fled to the 
mountainous regions of Mexico before he could be apprehended.
    Although drug-related violence in Mexico has been 
historically commonplace, within the last year drug-related 
violence has increased exponentially. Daily newspaper articles 
have memorialized the recent rash of kidnappings and executions 
of Government of Mexico officials assigned to investigate 
narcotics-related crimes.
    Since January of this year, numerous Mexican officials 
assigned to anti-narcotics operations have been murdered and 
several others have been seriously injured. The trail of 
violence continues, as evidenced by the recent ambush 
andsubsequent torture and murder of two Mexican law enforcement 
officials assigned to a border task force just days before this 
hearing.
    DEA remains gravely concerned about the more recent threats 
and assaults directed against U.S. Government personnel. Of 
particular concern was an incident occurring in Matamoros, 
Mexico, on November 9, 1999. A DEA special agent and an FBI 
special agent were traveling in a vehicle while debriefing a 
cooperating source in Matamoros, Mexico. They were surrounded 
and physically threatened by a Mexican drug trafficker and 
approximately 15 of his bodyguards who were brandishing 
automatic weapons.
    The Tampaulipas State Police commander who was aware of the 
situation as it was happening did nothing to assist the two 
agents. The traffickers demanded that the two agents turn over 
their source, the cooperating source, certainly to face death 
at their hands. To their credit, the agents refused to turn him 
over. During the confrontation, the drug trafficker ordered his 
henchmen to shoot the agents and the source. However, 
displaying calm control of an explosive and deadly situation, 
the two agents were able to talk their way out and made their 
way safely to the United States with the cooperating source and 
his family.
    Many of the threats or assaults on our personnel have been 
subsequent to or while executing major enforcement operations. 
As an example, in January of this year the FBI advised DEA that 
the Amado Carillo-Fuentes drug trafficking organization had 
offered a $200,000 bounty to anyone who murdered a U.S. law 
enforcement agent in Mexico or on the border.
    In addition, in February of this year DEA was again advised 
that a major drug trafficker threatened retaliation against 
U.S. law enforcement and/or U.S. facilities located within 
Mexico and along the U.S. Southwest border. The DEA regards 
these threats as extremely serious and has taken immediate 
action to ensure the safety or our personnel.
    Mr. Chairman, the safety and security of DEA personnel and 
their families is a priority within our agency. The DEA has and 
will continue to utilize every means available to ensure their 
safety and security. We do, however, remain extremely concerned 
regarding the Government of Mexico's ability to effectively 
respond to these incidents in a timely manner.
    In addition, in virtually every incident involving a 
narcoterrorist threat against our agents or personnel in 
Mexico, Mexican police officials, acting as enforcers for the 
drug traffickers, were involved. This fact alone speaks to the 
continued ability of the heads of these criminal drug 
trafficking organizations to corrupt Mexican law enforcement 
officials.
    However, we are encouraged regarding the recent arrests of 
key members of the Amado Carillo-Fuentes drug trafficking 
organization by the Government of Mexico. We are hopeful that 
the recent events are a sign of renewed commitment of our 
cooperative counter-drug investigations.
    Mr. Chairman, on behalf of the brave men and women of the 
Drug Enforcement Administration, I would like to thank you for 
the opportunity to testify before this subcommittee today. At 
this time, I would be glad to answer any questions you may 
have.
    [The prepared statement of Mr. Ledwith follows:]

                Prepared Statement of William E. Ledwith

    Mr. Chairman, Members of the Subcommittee: I appreciate the 
opportunity to appear today to speak briefly on the threats posed to 
federal law enforcement officers. I would first like to thank the 
Subcommittee for its continued support of the Drug Enforcement 
Administration and overall support of drug law enforcement.
    Because DEA is the only single-mission federal agency dedicated to 
drug law enforcement, the agency has, over the years, developed the 
ability to direct resources and manpower to identify, target and 
dismantle drug organizations headquartered overseas and within the 
United States. DEA's strategy to successfully accomplish these goals is 
straightforward, requiring that the agency's resources and manpower be 
focused on all three levels of the drug trade: the international, 
national/regional and local levels. Each of these categories represents 
a critical aspect of the drug continuum, which affects communities 
across the nation.
    The 9,000 dedicated men and women of the DEA are committed to 
improving the quality of life of the citizens of the United States. The 
agency directs and supports investigations against the highest levels 
of the international drug trade, their surrogates operating within the 
United States, and those traffickers whose violence and criminal 
activities destabilize towns and cities across the country. These 
investigations are intelligence-driven and frequently involve the 
cooperative efforts of numerous other law enforcement organizations.
    Drug enforcement is an extremely hazardous occupation. This is due 
to the fact that drug traffickers have no regard for civil order, 
justice or human life. Their goal is to amass large sums of money in 
order to maintain their obscene and lavish life style, free from the 
boundaries or confines of the law. U.S. law enforcement poses the 
greatest threat to the drug traffickers ability to operate unabated. We 
have become the major stumbling block to them and have therefore, 
voluntarily, become targets of their criminal violence and 
ruthlessness. Nowhere has this violence become more prevalent than 
along the Southwest border and in Mexico at the hands of Mexican drug 
trafficking organizations.
    Mexican drug trafficking organizations pose the greatest challenge 
to law enforcement agencies in the United States. For years, we have 
watched with concern as powerful organized crime syndicates based in 
Mexico began to dominate the distribution of drugs throughout our 
country. Through the dedicated efforts of Federal, state and local law 
enforcement agencies, we now have a clear picture of how these drug 
lords direct the sale of drugs within the U.S., how they collect their 
billions of dollars in drug profits, and how they arrange for the 
assassination of witnesses in both Mexico and the United States.
    We have not only identified the drug lords themselves, but in most 
cases, the key members of their command and control structure. The 
combined investigations of DEA, FBI, the U.S. Customs Service and 
members of state and local police departments have resulted in the 
seizure of hundreds of tons of drugs, hundreds of millions of dollars 
in drug proceeds and the indictment of virtually every one of the 
leading drug lords. However, despite the evidence against these 
powerful drug traffickers, they have been able to evade arrest and 
prosecution. The primary reason they have been able to avoid arrest and 
continue to ship drugs into the United States is attributable to their 
ability to intimidate witnesses, assassinate public officials and their 
ability to corrupt many of the civilian law enforcement agencies in 
Mexico, often at the command level.
    The violence that is an essential part of the operations of these 
ruthless and powerful organizations, has a deadly effect on innocent 
citizens and law enforcement officers across the United States as well 
as those federal law enforcement agents stationed in Mexico. The 
trafficker's willingness to murder and intimidate witnesses, public 
officials as well as law enforcement officers has allowed them to 
develop into the present day threat they have become.
    For decades, a number of threats have been made against U.S. law 
enforcement personnel stationed in Mexico by Mexican drug traffickers. 
Some of these threats and assaults resulted in serious injury and 
death. One of the most heinous acts of narco-terrorism against DEA was 
the 1985 kidnapping, torture and murder of DEA Special Agent Enrique 
Camarena. On February 7, 1985, Special Agent Enrique Camarena and 
Mexican Captain Alfredo Zavala, a DEA confidential source of 
information, were kidnapped by Mexican drug traffickers from two 
separate locations in Guadalajara, Jalisco, Mexico. On March 5, 1985, 
the bodies of S/A Camarena and Captain Zavala were found in plastic 
bags lying in a field adjacent to a busy road. Tape recordings seized 
by the Mexican military from a notorious Mexican drug trafficker, 
confirmed that S/A Camarena had been brutally beaten and tortured while 
being interrogated about his knowledge of Mexican drug traffickers and 
the identity of DEA sources of information. Special Agent Camarena's 
brutal murder captured worldwide attention and subsequently sparked an 
international investigation in order to bring to justice those 
individuals responsible for his death. The investigation ultimately 
revealed the involvement of corrupt Mexican law enforcementelements, 
military and public officials, in the execution of S/A Camarena's 
murder.
    Just over a year later, DEA would again realize the ruthless and 
bold tactics of Mexican drug traffickers and their corrupt 
counterparts. In August of 1986, DEA Special Agent Victor Cortez and 
DEA informant Anton Garate-Bustamante were kidnapped in Guadalajara, 
Mexico by corrupt Mexican police officers. S/A Cortez and Garate-
Bustamante were interrogated, beaten and tortured at a local Mexican 
police station for four hours. The corrupt police officers, who were 
obviously acting on behalf of a Mexican drug trafficking organization, 
attempted to learn the names and locations of other DEA Agents, their 
families and cooperating individuals who were working with DEA 
personnel in country. S/A Cortez and Garate-Bustamante were released 
only after the DEA Resident Agent in Charge arrived at the police 
station and relentlessly demanded their release. Six individuals were 
eventually arrested by Mexican authorities and charged with this 
heinous act of narco-terrorism.
    Mexican drug trafficking organizations routinely rely on violence 
as an essential tool of the trade. Much of the drug-related violence 
which has become commonplace in Mexico, has spilled over into the 
United States. Many of these acts of violence have been aimed at U.S. 
law enforcement personnel working along or in close proximity to the 
Southwest Border. Drug traffickers believe that Mexico represents safe 
refuge from U.S. law enforcement, regardless of their crime.
    On June 30, 1994, DEA Special Agent Richard Fass of the Phoenix 
Field Division, was killed by Mexican drug traffickers during an 
undercover operation in Glendale, Arizona. The subsequent investigation 
revealed that Augustin Vasquez-Mendoza, identified as the leader of 
this drug trafficking group, orchestrated a plan to steal $160,000.00 
from the undercover agent. During the attempted rip-off, S/A Fass was 
murdered while attempting to defend his life and the life of a DEA 
informant. Although four other members of this organization were 
captured and prosecuted, Vasquez-Mendoza fled to the mountainous region 
of Apatzingan, Michoacan, Mexico before he could be apprehended.
    Mexican drug traffickers have adopted a strategy of taking 
increasingly confrontational and defensive actions when moving drug 
loads across the U.S./Mexico border. During 1998, a relatively new 
trend involving armed attacks by Mexican traffickers on U.S. law 
enforcement officers continued with fatal consequences. These armed 
encounters always developed during the drug trafficker's attempts to 
avoid arrest while fleeing back to Mexico. One such attack took place 
on June 3, 1998, along the Mexican border near Nogales, Arizona. U.S. 
Border Patrol Agent Alexander Kirpnick and a fellow agent were 
attempting to arrest five Mexican males who were transporting marijuana 
north across the border when he was shot and killed.
    Although drug related violence in Mexico has been historically 
commonplace, within the last year, drug related violence has increased 
exponentially. Daily newspaper articles have memorialized the recent 
rash of kidnappings and executions of Government of Mexico (GOM) 
officials assigned to investigate narcotic related crimes. Since 
January of 2000, numerous Mexican officials assigned to anti narcotics 
operations have been murdered and several others were seriously 
injured.
    Of note, Tijuana Police Chief, Alfredo de la Torre-Marquez was shot 
and killed by two carloads of assassins on February 27, 2000. On March 
28, 2000, former Director of Investigations for the Organized Crime 
Unit (OCU), Cuauhtemoc Herrera-Suastegui, was shot in an ambush--one 
day before he was set to testify before the Mexican Attorney General in 
an investigation of the Carrillo-Fuentes Organization.
    In perhaps the most heinous recent incident, on April 10, 2000 
Mexican Attorneys Jose Luis ``Pepe'' Patino and Oscar Pompa, and Army 
Captain Rafael Torres Bernal, who were working closely with DEA and FBI 
Special Agents assigned to San Diego, were murdered. The three were en 
route from San Diego to the PGR (Mexican Attorney General's Office) 
Headquarters in Tijuana, Mexico. The three never arrived as planned. 
They were apparently intercepted on the way, and brutally beaten to 
death. Their bodies were discovered two days later. Investigations are 
underway on both sides of the border to bring to justice the 
perpetrators of this savage act.
    The trail of violence continues as evidenced by the ambush and 
subsequent torture and murder of two Mexican law enforcement officials 
assigned to a Border Task Force which occurred just days before this 
hearing.
    DEA remains gravely concerned about the more recent threats and 
assaults directed against U.S. Government personnel. Of particular 
concern was an incident occurring in Matamoros, Mexico November 9, 
1999. A DEA Special Agent and an FBI Supervisory Special Agent were 
travelling in a vehicle, while debriefing a Cooperating Source in 
Matamoros, Mexico. They were surrounded and physically threatened by a 
Mexican drug trafficker and approximately 15 of his bodyguards, 
brandishing automatic weapons. The Tampaulipas State Police Commander, 
who was aware of the situation as it was happening, did nothing to 
assist the two agents. The traffickers demanded that the two agents 
turn over the source--certainly to face death at the traffickers hands. 
To their credit, the agents refused to turn over the source. During the 
confrontation the trafficker ordered his henchmen to shoot the agents 
and the source. However, displaying calm control of an explosive and 
deadly situation, the two were able to talk their way out, and made 
their way to safety in the United States.
    Many of the threats or assaults on our personnel have been 
subsequent to or while executing major enforcement operations. As an 
example, in January of this year, the FBI advised DEA that the Amado 
Carillo-Fuentes Drug Trafficking organization offered a $200,000.00 
bounty to anyone who murdered any U.S. law enforcement agent in Mexico 
or the U.S. In addition, in February of this year, DEA was again 
advised by the FBI, that a major drug trafficker identified as Juan 
Jose Esparragosa-Moreno, threatened retaliation against U.S. law 
enforcement and/or facilities located within Mexico and along the U.S. 
southwest border. The DEA regards these threats as extremely serious 
and has taken immediate actions to ensure the safety of our personnel.
    Mr. Chairman, the safety and security of DEA personnel and their 
families is a priority within our agency. The DEA has, and will 
continue to utilize, every means available to ensure their safety and 
security. We do, however, remain extremely concerned regarding the 
Government of Mexico's ability to effectively respond to these 
incidents in a timely manner. In addition, in virtually every incident 
involving a narcoterroristic threat against our agents or personnel in 
Mexico, Mexican Police officials, acting as enforcers for drug 
traffickers, were involved. This fact alone speaks to the continued 
ability of the heads of these criminal drug trafficking organizations 
to corrupt Mexican law enforcement. However, we are encouraged 
regarding the recent arrests of key members of the Amado Carillo-
Fuentes drug trafficking organization. We are hopeful that the recent 
events are a sign of renewed commitment of our cooperative counter-drug 
investigations.
    Mr. Chairman, on behalf of the brave men and women of the Drug 
Enforcement Administration, I would like to thank you for the 
opportunity to testify before the Subcommittee today. At this time I 
will be glad to answer any questions you may have.

    Senator Thurmond. Thank you very much.
    We would be glad to hear from you.

                 STATEMENT OF DAVID A. SALEEBA

    Mr. Saleeba. Good afternoon, Mr. Chairman and members of 
the committee. It is a pleasure to testify before you today.
    The U.S. Secret Service is not unlike any other local, 
State or Federal law enforcement agency in that inherent in our 
mission is an understanding that to effectively fulfill our 
responsibilities, there exists the real probability of being 
within harm's way.
    Since 1997, there have been 81 assaults against Secret 
Service special agents or Uniformed Division officers, 4 of 
which involved a firearm and 14 involved other weapons. During 
the same time period, there were 55 threats made against our 
law enforcement personnel by what we refer to as protective 
intelligence subjects. While some of the assaults and threats 
directed against Secret Service personnel occurred during non-
protective criminal investigations, a significant percentage 
involved subjects who were investigated due to their interest 
in our protectees.
    The subjects had either made a direct threat against, or 
shown an inappropriate interest toward one of our protectees. A 
large and significant percentage of those subjects that 
threaten the President or others we protect are mentally ill. 
Consequently, during the course of our interaction with these 
individuals, they often develop an obsession, animosity, or 
both, toward the agent or officer.
    What makes the aforementioned cases unique is the very 
thing that makes the Secret Service's mission unique--our duty 
to protect the President, Vice President, presidential 
candidates, and foreign heads of state. Our high-profile 
mandate, as well as the status of those we protect, attracts a 
variety of people with varying levels of animosity or 
inappropriate interest directed toward both our protectees and 
our personnel.
    Individual agents, selected field offices, and the Secret 
Service in general have been the targets of bomb threats, 
stalking behavior, threatening letters, e-mail, and entire Web 
sites. With the advent of the Internet, our agents have been 
intimidated and have had their names, addresses, vehicle 
descriptions, and even family members names' posted in 
cyberspace.
    Secret Service law enforcement personnel are encouraged to 
protect their privacy and identities by following basic, 
common-sense guidelines. Our field offices work with local 
municipalities to delete agents' names and identifiers from 
publicly available rosters, tax rolls, or Web sites.
    Two defining moments in Secret Service history and 
procedure occurred in the early 1980's. A mentally ill subject, 
of record with the Service, appeared at the Denver Field 
Office, confronted an agent with whom he had become familiar, 
produced a handgun, and shot and killed Special Agent Perry 
Watkins in the lobby of our field office. The subject was 
subsequently shot and killed by another agent. In 1981, John 
Hinckley was found not guilty by reason of insanity after he 
shot and wounded President Reagan and others, including a 
Secret Service agent, in Washington, DC.
    As a result of the Watkins case, all Secret Service offices 
were equipped with secure entrances and bullet-resistant glass 
barriers, and our policies and procedures were reviewed 
regarding approaching and dealing with mentally or emotionally 
unstable subjects.
    The Hinckley case highlights how we, as law enforcement 
professionals, greatly benefit by increasing our understanding 
of and appreciation for the implications of mental illness on 
our protective responsibilities. Therefore, the Secret Service 
initiated an active and working relationship with the mental 
health community. We also undertook an aggressive program to 
train our agents to better understand, deal with, and assess 
the mentally ill, and at the same time develop a cadre of 
contracted mental health professionals in various regions of 
the country to assist us in our protective intelligence 
mission. This has been the genesis of our threat assessment 
process for identifying, confronting, and managing potential 
assassins.
    Many times, a threat against the President is a cry for 
help. Often, it is one of several threats made against other 
public officials or even celebrities. How we as an agency 
respond can range from arrest and prosecution to finding 
psychological intervention for the subject.
    When a special agent or Uniformed Division officer is the 
target of a threat, the individual agent or officer is 
notified, along with their supervisor, and if they are 
currently assigned to a protective detail, the operational 
detail is well briefed and alerted to the threat. In view of 
our agency's mission, the response to a threat made against one 
of our own is met with serious consideration and is fully 
investigated.
    In those instances wherein the subject's animosity is 
broader or less focused, our notification process can be 
expansive. We become responsible for alerting others whose 
safety is potentially threatened and removing them from harm's 
way, be they family, co-workers, acquaintances, or even public 
officials. What is critical in the final analysis is 
safeguarding our public officials, the men and women tasked 
with this responsibility, and the public in general.
    Mr. Chairman and members of the committee, on behalf of the 
men and women of the Secret Service, I would like to express my 
appreciation to you and the committee for the years of support 
you have given to us and the law enforcement community.
    This concludes my statement. I will now be available to 
answer any questions that you or the committee may have. Thank 
you.
    [The prepared statement of Mr. Saleeba follows:]

                 Prepared Statement of David A. Saleeba

    Good afternoon. Mr. Chairman and members of the Committee, it is a 
pleasure to testify before you today.
    The United States Secret Service is not unlike any other local, 
state, or federal law enforcement agency in that, inherent in our 
mission, is an understanding that to effectively fulfill our 
responsibilities, there exists the real probability of being within 
harms' way.
    Since 1997, there have been 81 assaults against Secret Service 
special agents or Uniformed Division officers, 4 of which involved a 
firearm, and 14 involved other weapons. During the same time period, 
there were 55 threats made against our law enforcement personnel, by 
what we refer to as protective intelligence subjects. While some of the 
assaults and threats directed against Secret Service personnel occurred 
during non-protective criminal investigations, a significant percentage 
involved subjects who were investigated due to their interest in our 
protectees. The subject had either made a direct threat against, or 
shown an inappropriate interest towards, one of our protectees. A large 
and significant percentage of those subjects that threaten the 
President or the others we protect, are mentally ill. Consequently, 
during the course of our interaction with these individuals, they often 
develop an obsession, animosity, or both towards the agent or officer.
    What makes the aforementioned cases unique is the very thing that 
makes the Secret Service's mission unique, our duty to protect the 
President, Vice President, presidential candidates, and foreign heads 
of state. Our high profile mandate, as well as the status of those we 
protect, attracts a variety of people with varying levels of animosity 
or ``inappropriate interest'' directed towards both our protectees and 
our personnel.
    Individual agents, selected field offices and the Secret Service in 
general, have been the targets of bomb threats, stalking behavior, 
threatening letters, e-mail, and entire web sites. With the advent of 
the Internet, our agents have been intimidated and have had their 
names, addresses, vehicle descriptions, and even family members' names 
posted in cyberspace.
    Secret Service law enforcement personnel are encouraged to protect 
their privacy and identities by following basic common sense 
guidelines. Our field offices work with local municipalities to delete 
agents' names and identifiers from publicly available rosters, tax 
rolls, or web sites.
    Two defining moments in Secret Service history and procedure 
occurred in the early 1980's. A mentally ill subject, of record with 
the Service, appeared at the Denver Field Office confronted an agent 
with whom he had become familiar, produced a handgun, and shot and 
killed Special Agent Perry Watkins in the lobby of our field office. 
The subject was subsequently shot and killed by another agent. And in 
1981, John Hinckley was found not guilty by reason of insanity after he 
shot and wounded President Reagan and others, including a USSS agent, 
in Washington, D.C.
    As a result of the Watkins case, all Secret Service offices were 
equipped with secure entrances and bullet resistant glass barriers, and 
our procedures and policies were reviewed regarding approaching and 
dealing with mentally or emotionally unstable subjects. The Hinckley 
case highlights how we, as law enforcement professionals, greatly 
benefit by increasing our understanding of, and appreciation for, the 
implications of mental illness on our protective responsibilities. 
Therefore, the Secret Service initiated an active and working 
relationship with the mental health community. We also undertook an 
aggressive program to train our agents to better understand, deal with 
and assess the mentally ill, and, at the same time, develop a cadre of 
contracted mental health professionals in various regions of the 
country to assist us in our protective intelligence mission. This has 
been the genesis of our threat assessment process for identifying, 
confronting and managing potential assassins.
    Many times, a threat against the President is a cry for help; 
often, it is one of several threats made against other public officials 
or even celebrities: How we as an agency respond can range from arrest 
and prosecution, to finding psychological intervention for the subject.
    When a special agent or Uniformed Division officer is the target of 
a threat, the individual agent or officer is notified, along with their 
supervisor, and if they are currently assigned to a protective detail, 
the operational detail is well briefed and alerted to the threat. In 
lieu of our agency's mission, the response to a threat made against one 
of our own, is met with serious consideration and is fully 
investigated. In those instances wherein the subject's animosity is 
broader or less focused, our notification process can be expansive. We 
become responsible for alerting others whose safety is potentially 
threatened and removing them from harms' way, be they family, co-
workers, acquaintances or public officials.
    What is critical in the final analysis is safeguarding our public 
officials, the men and women tasked with this responsibility, and the 
public in general.
    Mr. Chairman, this concludes my statement. I will now be available 
to answer any questions that you or the committee may have.

                  STATEMENT OF JOHN C. VARRONE

    Mr. Varrone. Good afternoon, Mr. Chairman, members of the 
committee. OMB has not had a chance to review our statement 
yet. Can I ask that the record remain open until such time?
    Senator Thurmond. Yes, we will keep the record open for a 
reasonable time.
    Mr. Varrone. Thank you, sir.
    Good afternoon, Mr. Chairman and members of the committee. 
On behalf of Commissioner Kelly and the U.S. Customs Service, 
it is my pleasure to appear before this committee to discuss 
the law enforcement activities of the Customs Service, and in 
particular our efforts regarding the critically important 
subject of assaults and threats against Customs officers in 
both our domestic and foreign offices.
    As the Federal Government's primary law enforcement agency 
charged with the protection of our land borders and ports of 
entry, the U.S. Customs Service is responsible for the daily 
processing of travelers, conveyances, and commercial cargo. On 
a typical day, U.S. Customs officers process 1.3 million 
passengers, over 341,000 vehicles, 45,000 trucks and 
containers, 2,500 aircraft, and 550 vessels. This high volume 
of activity results in daily interaction with numerous suspects 
and/or criminal organizations who attempt to violate the laws 
of the United States.
    While the vast majority of commercial activity and law-
abiding travelers get processed without incident, there is a 
small percentage who routinely attempt to violate our laws. On 
an average day, Customs arrests 67 violators, effects of 115 
narcotics and 12 currency seizures, and performs 143 other 
enforcement actions. This enormous volume results in the daily 
seizure of 3,925 pounds of narcotics and $1.2 million in U.S. 
currency.
    Over the past 5 years, our daily law enforcement 
interaction has led to an increase in physical acts of violence 
and threats to our officers. The increase in physical assaults 
and unpredictability of these events is of paramount concern to 
all Customs officers as well as the collective law enforcement 
community.
    As you are aware, the majority of our officers are both 
uniformed and armed. Customs officers and agents represent the 
first line of defense at our Nation's borders, and we should 
not accept any level of violence directed at them. Together, we 
must have zero tolerance for those who disregard the laws of 
the United States.
    Our mission requires that we must always be prepared for a 
wide range of enforcement challenges that may occur at any 
given moment during the course of our daily operations. The 
range of activities can be anywhere from physical confrontation 
pursuant to arrest, to bomb threats, or to the seizure of 
highly volatile explosives, such as the recent case in Seattle, 
WA. Customs field officers have reported 38 such bomb threats 
thus far in fiscal year 2000.
    Our officers must always remain vigilant against any person 
or persons willing to inflict bodily harm in the pursuit of 
their criminal activity. Our officers face the two-fold 
challenge of protecting the American public while also 
protecting themselves.
    In addition to our work at the borders and ports of entry, 
our agents routinely perform thousands of enforcement actions 
pursuant to our investigative responsibilities, such as drug 
control deliveries, arrests, and search warrants. Throughout 
all of our enforcement endeavors, acts of violence against our 
officers and agents have occurred with such increasing 
regularity that very few situations are still being viewed as 
routine.
    In recent years, assaults and threats against our officers 
have increased at an unprecedented rate. Since 1995, the number 
of assaults against our officers has increased 33 percent, 
while the number of threats received has increased 38 percent. 
While these are the recorded events, we believe that that 
number is even higher because many of our officers accept these 
threats as part of their duty as law enforcement officers.
    Since 1997, there have been more than 200 Federal arrests 
for assaults on Customs officers. While many prosecutors have 
vigorously pursued these cases, some have not. In response to 
this less than 100-percent effort, Commissioner Kelly recently 
forwarded a letter to the chairman of the U.S. Attorneys 
Advisory Committee requesting their full cooperation in 
pursuing Federal prosecution against those who attempt to do 
physical harm to any Customs personnel. We believe that a more 
consistent approach and commitment to these cases will also 
have a deterrent effect.
    As recently as March 9 of this year, Customs inspectors 
shot and killed a drug smuggling suspect who was armed and 
attempted to run down officers at a truck inspection station at 
the Otay Mesa border crossing. We were all reminded just a few 
weeks ago in Oklahoma City of the gravity of physical threat 
and tragic death of law enforcement officers and innocent 
civilians who suffered and died in the bombing of the Alfred P. 
Murrah Federal Building. Among those who sacrificed their lives 
there were Customs Special Agents Claude Medaris and Paul Ice.
    The video which you will be seeing shortly graphically 
depicts two very serious incidents. The first involves the 
shooting of two of our inspectors at the Calexico port of entry 
by an assailant, who in turn was shot and killed. The second 
involves port runner activity along our Southwest border which 
clearly places our employees and the traveling public in 
extreme danger.
    In response to this increasing threat, Commissioner Kelly 
has undertaken proactive measures to ensure the operational 
safety of all of our officers. Specifically, we have recently 
transitioned to a lighter, more efficient pistol, have adopted 
a national body armor policy to direct the procurement of body 
armor for all our armed officers, have amended internal policy 
to authorize our inspection officers to carry firearms while 
off duty, and have recently issued shotguns along the Southwest 
border where, as you are aware, cross-border violence is 
escalating.
    Lastly, we are currently modifying our in-service firearms 
and tactical training program to allow for comprehensive 
scenario-based training to better prepare our armed workforce, 
as well as developing a 40-hour confrontational safety 
awareness course for our foreign assigned personnel.
    Customs officers know full well that they are very visible 
along the borders and do stand in harm's way. Our concerns are 
for the safety of the American public, the millions of people 
that cross our borders each year, and our employees who are 
America's front line. On behalf of the men and women of the 
U.S. Customs Service, I wish to thank you for all your past 
support and the opportunity to present to this committee a 
brief overview of the increasing assaults and threats which 
confront our law enforcement officers on a daily basis.
    This concludes my remarks. With your permission, sir, I 
would like to offer a short video presentation, after which I 
would be glad to answer questions.
    [The prepared statement of Mr. Varrone follows:]

                 Prepared Statement of John C. Varrone

                              INTRODUCTION

    Good morning, Mr. Chairman and members of the Committee. On behalf 
of Commissioner Kelly and the United States Customs Service, it is my 
pleasure to appear before this Committee to discuss the law enforcement 
activities of the Customs Service, and, in particular, our efforts 
regarding the critically important subject of assaults and threats 
against Customs Officers in both our domestic and foreign offices.
    As the Federal government's primary law enforcement agency charged 
with the protection of our land borders and ports of entry, the U.S. 
Customs Service is responsible for the daily processing of travelers, 
conveyances and commercial cargo. On a typical day, U.S. Customs 
officers process 1.3 million passengers, over 341,000 vehicles, 45,000 
trucks and containers, 2,500 aircraft, and 550 vessels. This high 
volume of activity results in the daily interaction with numerous 
suspects and/or criminal organizations that attempt to violate the laws 
of the United States. While the vast majority of commercial activity 
and law abiding travelers get processed without incident there is a 
small percentage who routinely attempt to violate our laws. On an 
average day, Customs arrests 67 violators, effects 115 narcotics and 12 
currency seizures, and performs 143 other enforcement actions. This 
enormous volume results in the daily seizure of 3,925 pounds of 
narcotics, 1.2 million in U.S. Currency, $368,000 in conveyances, 
$24,000 in arms and munitions and $554,000 in commercial merchandise.
    As my testimony today will demonstrate over the past 5 years, our 
daily law enforcement interaction has led to an increase in physical 
acts of violence and threats to our officers at an alarming rate. The 
increase in physical assaults and unpredictability of these events is 
of paramount concern to all Customs officers, as well as the collective 
law enforcement community. As you are aware, the majority of our 
officers are both uniformed and armed. Customs officers and agents 
represent the first line of defense at our nation's borders and we 
should not accept any level of violence directed at them. Together, we 
must have ``zero tolerance'' for those who disregard the laws of the 
United States.
    U.S. Customs officers understand and accept that violent acts can 
and do occur while carrying out their sworn duties. We are currently 
developing a rigorous program aimed at providing our inspectors and 
agents a high level of proficiency in law enforcement techniques. Such 
training is critical not only for our Customs officers but also to the 
men and women passing through our Ports of Entry. We are constantly 
working on evaluating and improving our national enforcement training 
programs.
    Our mission requires that we must always be prepared for a wide 
range of enforcement challenges that may occur at any given moment 
during the course of our daily operations. The range of activities can 
be from physical confrontation pursuant to arrest, bomb threats, or the 
seizure of highly volatile explosives. Last December, Customs 
inspectors in Port Angeles, Washington, seized large quantities of bomb 
making materials including nitro glycerin and timing devices being 
smuggled into the United States from Canada by Ahmed Ressam, an 
individual with ties to an Algerian organization suspected of planning 
terrorist attacks on millennium celebrations in the United States. One 
can only speculate as to how many innocent lives would have been lost. 
Recent activity indicates the stakes are rising. Customs field offices 
have reported 38 bomb threats in this fiscal year. Our officers must 
always remain vigilant against any person or persons willing to inflict 
bodily harm in the pursuit of their criminal activity. Our officers 
face the twofold challenge of protecting themselves while they protect 
the American public.
    In addition to our work at the borders and ports of entry, our 
agents routinely perform thousands of enforcement actions, pursuant to 
our investigative responsibilities, such as drug controlled deliveries, 
arrest and search warrants. Throughout all of our enforcement 
endeavors, acts of violence against our officers and agents have 
occurred with such increasing regularity that very few situations are 
still being viewed as routine.

              ESCALATION OF THREATS OVER THE LAST 5 YEARS

    In recent years assaults and threats against our officers have 
increased at an unprecedented rate. Alarmingly, since 1995, the numbers 
of assaults against our officers have increased 33%, while the number 
of threats received has increased 38%. While these are the recorded 
events, we believe that the number of events is higher, because many 
officers accept that threats from those who we arrest is part of the 
criminal culture, and that we are trained to handle any actual 
occurrence; therefore many officer's may not report casual or routine 
threats subsequent to arrest.
    Customs enforcement personnel include, Inspectors, Special Agents, 
Air Interdiction Officers, Marine Enforcement Officers, Customs Patrol 
Officers, and Canine Enforcement Officers, all of whom have experienced 
this rise in physical violence and related threat. There has even been 
an increase in assaults on our contraband-detector dogs.
    Since 1997, there have been more than 200 federal arrests for 
assaults on Customs Officers. While many prosecutors have vigorously 
pursued these cases, some have not. In response to this less than 100% 
effort, Commissioner Kelly recently forwarded a letter to the Chairman 
of the U.S. Attorneys advisory committee requesting their full 
cooperation in pursuing Federal prosecution against those who attempt 
to do physical harm to any Customs personnel. We believe that a more 
consistent approach and commitment to prosecuting these cases is 
critical to ensure the safety of Customs officers and will have a 
deterrent effect on future acts of violence against them.

                            VIOLENT ASSAULTS

    Our officers have been assaulted while inspecting the holds of 
commercial vessels, when conducting interviews and interrogations, and 
in performance of undercover, and drug enforcement operations. Port 
running, is still a grave threat. As recently, as March 9, 2000 Customs 
Inspectors shot and killed a drug-smuggling suspect who was armed and 
attempted to run down officers at a truck inspection area at the Otay 
Mesa border crossing.
    In perhaps the worst example in the history of the United States of 
violence against law enforcement personnel, two Customs officers were 
killed. Just a few weeks ago in Oklahoma City, we were all reminded of 
the tragic death of law enforcement officers and innocent civilians who 
died in the bombing of the Alfred P. Murrah Federal building. Among 
those who sacrificed their lives were Customs Special Agents Claude 
Medaris and Paul Ice.
    Mr. Chairman, I would like to provide you with two examples of 
recent incidents where assaults of our officers took place. In the 
first example, a routine undercover money laundering operation suddenly 
went awry when the primary suspects, who were in the process of 
delivering a large amount of drug money to our undercover agents, 
orchestrated a robbery attempt of the drug proceeds. A brief gun battle 
ensured on a busy street corner in New York City, which resulted in our 
undercover agent getting shot. When it was over, one Customs undercover 
agent lay wounded, and one of the suspects lay dead in the parking lot.
    The second incident occurred at an Inspection Station at a Port of 
Entry located at Calexico, California. An Inspector brought an 
individual into the office for what he believed was going to be a 
routine pat down search. That person, who was in his seventies, 
suddenly drew a 9mm pistol, and shot one Inspector in the chest and 
another in the face. Incredibly, our officers who were fired upon 
without warning were able to return fire, killing the suspect. The 
subsequent search of the suspect's vehicle disclosed approximately 100 
pounds of marijuana.

                        EFFORTS TO STEM VIOLENCE

    In response to this increasing threat, Customs has under taken 
proactive measures to ensure the operational safety of our officers. 
Specifically, we have recently transitioned to a lighter, more 
efficient pistol, which offers enhanced magazine capacity and 
reliability. We have adopted a National Body Armor Policy to direct the 
procurement of body armor for all our armed officers. We have amended 
internal policy to authorize our inspectional officers to carry 
firearms while off duty, and have recently issued shotguns along the 
Southwest Border where as you are aware cross border violence is 
escalating. Lastly, we are currently modifying our In-Service Firearms 
and Tactical Training program to allow for comprehensive, scenario-
based training to better prepare our armed workforce.
    In response to the increasing threat of physical violence to our 
officers who are based at foreign posts, we are developing a 40-hour 
Confrontational Safety Awareness course. This training will be provided 
to our personnel before they depart for their foreign post, to prepare 
them for the potential threats that they may encounter while overseas.
    We have also developed new policy guidelines to coordinate with the 
respective United States Attorney on each and every incident of 
assaults on Customs officers.
    Please allow me to reiterate, it's a top priority to U.S. Customs 
to have these assault cases prosecuted to ensure the safety of Custom's 
officers and the traveling public.

   EFFECT OF OVERSEAS ENFORCEMENT ACTION ON ASSAULTS/THREATS ON OUR 
                           AGENTS/INSPECTORS

    Because so many of our officers work and live on our nation's 
borders, we must be concerned about the alarming number of threats 
directed against law enforcement as a result of our international 
efforts to stem the flow of narcotics across our nations borders.
    The U. S. Southwest border and by association, U.S. Customs, is 
being subjected to spillover incidents associated with the violence in 
Mexico. While many of these incidents are random, we are increasingly 
concerned that there may be a more concerted, organized and systematic 
attempt at targeting the U.S. Customs Service and intimidating our 
officers. Recent anti-terrorism enforcement efforts along the Northern 
Border create similar concerns there.
    We are cognizant that threats directed at U.S. Customs and other 
law enforcement officers are occurring with increasing frequency and 
regularity. The United States Customs Service is in continuous contact 
with other federal law enforcement and intelligence community agencies, 
maintaining constant communication in an effort to detect any evidence 
of threats against Custom's officers.
    Whenever a suspected threat is made regarding any law enforcement 
officer--whether it be a Federal, State or local office along the 
borders of the United States, the information is distributed to all 
Customs Officers, Inspectors, Special Agents, Canine Officers, and 
employees. Many times, this information has come from the Drug 
Enforcement Administration, Immigration and Naturalization Service, 
Federal Bureau of Investigation, and numerous other intelligence 
sources. We in turn, notify the rest of the federal law enforcement and 
intelligence community agencies should we discover any information 
concerning such threats.

                                CLOSING

    Our Customs Officers know, that because they are visible along the 
border, they stand in harms way. Changes we have made to our firearm 
policy, our use of force continuum, our defensive tactics training, and 
our equipment, reflect the emphasis we place on officer safety.
    On behalf of the men and women of the U.S. Customs Service, I thank 
you for all your past support, and the opportunity to present to this 
Committee a brief overview of the increasing assaults and threats which 
confront our law enforcement officers on a daily basis.
    This concludes my remarks. With your permission, I would like to 
offer a short video presentation, after which I will be glad to answer 
any questions you may have.

    Senator Thurmond. I am going to call on Senator Sessions 
next, but we have a video first I would like to show.
    [Videotape shown.]
    Senator Thurmond. Senator Sessions, do you have a statement 
you want to make?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Well, I just want to say that film was 
silent, but that was a very, very important video and I thank 
you for sharing it with us because I believe it shows, Mr. 
Chairman, how a routine event can turn in a split second into 
an event in which death can occur. Everyday, our law 
enforcement officers are out on the scene dealing with people, 
statistically speaking, who are far more dangerous than the 
people we go to church with or work with every day. They are 
out by themselves. They are subjected to the risk of serious, 
life-threatening injuries and death, and we need to back them 
up.
    I will just say this. The thing that disturbs me most about 
what I have seen in the hearing so far is the lack of 
prosecution that sometimes occurs. I was a Federal prosecutor, 
a U.S. attorney for 12 years, and I took the view that anybody 
who physically assaulted or threatened a law officer, if they 
were prosecutable under law, they were prosecuted.
    I think we need to send a message to that effect that 
nobody is going to assault Federal law enforcement officers 
doing their duty under the law. They are out by themselves 
frequently, just one or two. They are outnumbered, and we 
cannot allow that to happen. So I think we need to look at that 
pretty seriously and maybe demand, Mr. Chairman, ultimately 
that the Department of Justice do a review of this and report 
to us, because there are some indications that I have seen here 
that the Department is not prosecuting them.
    Thank you for calling this hearing and for letting these 
great Federal investigative agents testify about this important 
subject.
    Senator Thurmond. Thank you very much.
    Gentlemen, you can answer this starting on this end going 
down. Are threats and assaults against Federal law enforcement 
officials on the rise? If so, would you say that criminals are 
becoming more violent in their actions and more willing to use 
force against law enforcement officials?
    Mr. Stephens. The FBI views it that the threats are on the 
rise and that there is a sense that the criminals are more 
prone to use violence against our agents and against Federal 
law enforcement in general.
    Senator Sessions. Even though general crime is down, the 
threat against agents----
    Mr. Stephens. Even though general crime is down. Although 
crime is down, we are out there responding everyday. Our 
mission has broadened somewhat. I mentioned earlier about the 
extraterritoriality, also our anti-violence initiatives, 
participating with local officers in non-traditional FBI-type 
investigations, which provides more opportunity for us to 
confront desperate people who do desperate things.
    Mr. Ledwith. Yes, sir, and DEA would concur with that 
assessment both in the international area, where we see many 
countries in which DEA agents serve as increasingly violent, 
and there is an increase domestically in violence against 
police. Only last night, in Texas, DEA agents working 
undercover were confronted by an armed defendant, and the 
surveillance team entered the room and shot the defendant to 
death to protect the other agents. So, yes, we see an increase 
in violence against Federal law enforcement and against law 
enforcement in general.
    Mr. Saleeba. Yes, I would concur with my colleagues. We are 
seeing an increase in assaults and general resistance to arrest 
against our Federal agents and officers, I think, reflecting an 
arrogance, if not a lack of respect on the part of the public 
toward Federal law enforcement.
    Mr. Varrone. Yes, sir, I completely agree with my 
colleagues here. I believe statistically the numbers are up, 
but I also believe that there is a large percentage that goes 
unreported. I believe that there are many instances where, just 
by being a law enforcement officer, you believe that you will 
be subjected to some type of resistance from arrestees, and 
there seems to be some tolerance for that.
    Senator Thurmond. Mr. Ledwith, has the rise of violent drug 
cartel organizations in Mexico led to an increase in threats 
against Federal law enforcement officials here in the United 
States?
    Mr. Ledwith. Yes, sir, particularly along the Southwest 
border. In fairness to the Government of Mexico, it has led to 
significant threats and violent acts against government 
officials of Mexico also, sir.
    Senator Thurmond. Mr. Ledwith, what sorts of threats and 
dangers do Federal agents working in foreign countries face and 
which nations are the most dangerous?
    Mr. Ledwith. Well, sir, we, working alongside our 
colleagues in these countries, face particularly different 
threats. Pakistan, Thailand, Turkey come to mind in that part 
of the world; in this part of the world, particularly, Mexico 
and Colombia, sir. The brave police officers of those 
particular countries face threats every day, and DEA agents 
working alongside of them are equally threatened.
    Senator Thurmond. Mr. Ledwith, what, if any, protections 
are we giving personnel posted overseas and howquickly can we 
come to their aid should they be threatened?
    Mr. Ledwith. Well, sir, we are in the process of drawing up 
additional plans to come immediately to their aid, with the 
assistance of my colleagues, some of whom are at this table. We 
are in the process of developing better plans to do that.
    One of the principal things that governments in which 
Federal law enforcement personnel work overseas would be to 
assist with appropriate levels of diplomatic immunity. In 
Mexico, for instance, only our country attache is given full 
diplomatic immunity. The rest of our agents who work in the 
field everyday alongside their Mexican colleagues are only 
afforded consular protection, which is the lowest level of 
diplomatic immunity available and does not adequately protect 
our people.
    Senator Thurmond. Mr. Ledwith, I am very concerned about 
the ability of agents who are posted overseas being able to 
protect themselves. More specifically, there are nations which 
are uncooperative when it comes to allowing our agents to carry 
weapons for protection.
    Are your agents given diplomatic immunity and allowed to 
carry weapons in countries like Mexico?
    Mr. Ledwith. No, sir, they are not. Of particular concern 
is Mexican diplomatic immunity, in which, as I just previously 
mentioned, Senator, we are afforded only the very least, the 
minimal protection available under the diplomatic immunity 
laws.
    Senator Thurmond. Senator Sessions.
    Senator Sessions. Thank you.
    I believe, Mr. Varrone, you said there was a 33-percent 
increase in assaults or threats on your agents last year?
    Mr. Varrone. Yes, sir, 33 percent in assaults, 38 percent 
in threats.
    Senator Sessions. And that is 1 year's time?
    Mr. Varrone. Yes, sir, 1 year.
    Senator Sessions. Mr. Stephens, do you have any numbers 
overall on the increase of assaults on Federal law officers?
    Mr. Stephens. No, sir, I do not, not overall.
    Senator Sessions. What about the FBI? Do you know what they 
are this year?
    Mr. Stephens. They have been fairly constant this year. 
Some of the incidents involving the use of deadly force have 
increased. Fortunately, in the past 3 or 4 years, of the 52 
incidents where we deployed deadly force, no FBI agent were 
injured. Only the subjects were injured.
    Senator Sessions. Now, I believe it was Mr. Varrone that 
indicated, or Mr. Saleeba, that there was a lack of respect for 
the office of a law enforcement officer; I guess that is State 
and Federal. Do you think aggressive prosecutions help 
establish that, and that the word goes out eventually in the 
criminal community that if you threaten or harm a law officer 
that you are going to face big time in jail and a serious 
prosecution? Do you think that is a factor in protecting law 
officers?
    Mr. Stephens. Absolutely. I believe also the agency's 
concern and support for its personnel out there doing the job 
is equally important.
    Senator Sessions. What about you, Mr. Ledwith? Do you think 
aggressive law enforcement is a factor in helping the word get 
out in the criminal element that one thing you don't do is to 
harm a law officer?
    Mr. Ledwith. Yes, sir, I enthusiastically endorse that, and 
in the United States that is a very accurate threat against the 
crooks who would consider this kind of activity. I am far more 
concerned with it in the international arena, where our ability 
to extradite or our ability to effectively prosecute is 
diminished. And I think that U.S. Government needs to be 
prepared to speak with as many voices as possible in the 
international community that we will not condone that kind of 
violence against our men and women stationed overseas either.
    Senator Sessions. Well, it seems to me that if the country 
welcomes these agents and allows them to be there and asks for 
them to be there, they have an obligation to protect them.
    Mr. Saleeba, do you agree on the question of aggressive 
prosecution?
    Mr. Saleeba. Yes, Senator, I do. I feel that with more 
aggressive prosecution, you would see a greater respect and 
less resistance to arrest. I think the expectation of a 
criminal or a subject that is confronted on the street that he 
will not ever see the inside of a courtroom is very real, so it 
lends itself toward that arrogance.
    Senator Sessions. Mr. Varrone, would you comment on that?
    Mr. Varrone. Yes, sir, I do. The example I would use is 
that I don't think anywhere in this country you could push a 
local police officer, put your hands on a local police officer 
and push him or her and not expect to be arrested. I think that 
is a pretty fair standard and I think that should be the 
Federal standard as well.
    Senator Sessions. I am sure that is true in some areas. I 
remember one time a Corps of Engineers resource manager who 
managed a park way away from everybody, a rural area park, and 
a person got drunk and hit him. It wasn't serious, but I 
prosecuted that. I wanted them to know. Some people said, oh, 
he didn't mean that. I said, well, I have these people a 
hundred miles from the nearest Federal law officer. They are 
out there by themselves. Nobody is going to push them around 
that doesn't go to court in my district. I really believe that 
and I think it does make a difference.
    I was interested, Mr. Varrone, in the Commissioner's 
message. This is what I have, and I believe this was done March 
31 of this year. He wrote this: ``Since 1997, there have been 
more than 200 arrests for Federal assaults on Customs officers. 
In some districts, assaults are vigorously prosecuted. In 
others, they are not, and prosecutions are routinely declined. 
Our record of pursuing felony charges against those who have 
assaulted Customs officers has been uneven. This is 
unacceptable. Our officers today are striving to enhance the 
level of professionalism with which they interact with the 
traveling public. Likewise, the traveling public must respect 
the authority vested in our officers.''
    He goes on to say, ``I recently sent a letter to the 
chairman of the U.S. Attorney General's Advisory Committee.'' 
That is 94 U.S. attorneys and they have a committee they elect 
called the Advisory committee. So he sent a letter to the 
chairman of that committee, and he said, ``asking for their 
cooperation in pursuing prosecution against those who attempt 
to do physical harm to our personnel. I requested that the 
Attorney General's office join with us in sending a strong 
message that violence against Customs officers will not be 
tolerated.''
    Are you aware, Mr. Varrone, of what action may have been 
taken to date on that?
    Mr. Varrone. I am generally aware that our prosecutions are 
up. I don't know case by case, but I know internally we have 
created a tracking system to track each and every case, even if 
it gets referred for State prosecution, to ensure that if we 
are dissatisfied with any of those lack-of-action type 
activities that the Commissioner will go on record.
    I also have a copy with me of the letter that the 
Commissioner has sent to the Honorable Mark T. Calloway, who is 
the chairman of the U.S. attorneys, sir.
    Senator Sessions. Would you offer that for the record?
    Mr. Varrone. Yes, sir, I would be glad to.
    [The letter referred to follows:]

                                      U.S. Customs Service,
                                    Washington, DC, March 29, 2000.
Hon. Mark T. Calloway,
U.S. Attorney, Western District of North Carolina,
Charlotte, NC.
    Dear Mr. Calloway: Customs Inspectors and Special Agents constitute 
law enforcement's frontline at the Nation's borders. Their hard work in 
investigating and interdicting the flow of illegal drugs makes them 
daily targets for smugglers, and potential smugglers, at every one of 
our 301 air, sea, and land ports.
    Since 1997, there have been more than 200 federal arrests for 
assaults on Customs employees. In some districts, assaults on Customs 
officers are vigorously prosecuted. Unfortunately, other districts 
attach little importance to these cases; and prosecutions are routinely 
declined.
    I appreciate the wide discretion traditionally given to the United 
States Attorneys in establishing prosecution guidelines. I also 
understand that busy districts may hesitate to use scarce prosecutive 
resources on such assault cases. In districts where assault cases are 
accepted or declined by the duty Assistant United States Attorney, 
moreover, the decision may be made without clear guidelines or a full 
understanding of a adverse impact the declination will have on the 
Customs workforce.
    I ask that you place the issue of prosecuting assaults on Customs 
officers on the agenda of the Attorney General's Advisory Committee and 
bring this matter to the Attorney General's attention at your earliest 
opportunity. In our view, there should be uniform treatment of these 
cases: an assault on a Customs Inspector in Blaine, Washington, should 
be prosecuted by the same standard as an assault in Miami, Florida. 
Moreover, we believe that the decision to accept or decline prosecution 
should be made by the criminal chief or first assistant, not the duty 
assistant. Adopting these measures will go far towards supporting the 
Customs workforce in its difficult and dangerous job.
    Thank you for your attention to this matter. My staff and I stand 
ready to provide you with any information or assistance you may need.
            Yours truly,
                                          Raymond W. Kelly,
                                                      Commissioner.

    Senator Sessions. What about the Attorney General? Do you 
know if there has been a response received from the Attorney 
General yet on that?
    Mr. Varrone. I believe there have been discussions. There 
were discussions and the Commissioner has let it be known of 
his position on these issues. I don't know the specific 
response, sir.
    Senator Sessions. Well, isn't it true with regard to 
Customs officers particularly, and INS officers, Border Patrol, 
that they are particularly vulnerable? They are on ships or 
docks one or two at a time and could easily be overwhelmed by 
numbers and are pretty vulnerable. Would you agree with that?
    Mr. Varrone. Yes, sir, very much.
    Senator Sessions. And would you agree that it would be a 
very bad thing if we ever were to leave the impression that 
violence against Federal officers would be treated anything 
other than with the most vigorous prosecution?
    Mr. Varrone. Yes, sir.
    Senator Sessions. I think, Mr. Chairman, we need to work on 
that. Maybe some of these U.S. attorneys just are not 
experienced in law enforcement, and I know a lot of them 
aren't, as a matter of fact, and don't understand this 
principle very well. I think we need to make sure the Attorney 
General is exerting her leadership to ensure that these cases 
are prosecuted. I am very troubled by that.
    I have to mention one more, if you will give me 1 second. I 
was late coming in, Mr. Stephens. Did you read the example in 
your written remarks of the assault on the FBI agent that did 
not get prosecuted? It is on page 10, I believe, or 11.
    Mr. Stephens. The Indianapolis incident?
    Senator Sessions. Yes.
    Mr. Stephens. Yes, sir.
    Senator Sessions. That is a troubling thing to me. Has 
anything happened to date since you have written this about 
that case?
    Mr. Stephens. We issued a strong letter to the U.S. 
attorney regarding his opinion as to whether he could sustain a 
prosecution for assault. I don't think we prevailed on that.
    Senator Sessions. So they still have declined to prosecute 
a case in which agents armed with a warrant--two rounds were 
fired at them, almost striking one of them in the head.
    Mr. Stephens. Well, the U.S. attorney's opinion was that 
the subject was acting in self-defense, protecting his home 
from unknown people.
    Senator Sessions. Well, the FBI announces what it is doing 
before it enters.
    Mr. Stephens. Yes, sir.
    Senator Sessions. That is standard procedure. I don't 
believe there is any FBI agent or any other Federal or State 
officer that would enter without announcing who they are on a 
search warrant.
    Mr. Chairman, thank you.
    Senator Thurmond. Gentlemen, can any of you think of a 
nation where the danger posed to the safety of an agent 
outweighs the benefits of having them posted there?
    Mr. Stephens. No, sir.
    Mr. Ledwith. No, sir, I would not say that.
    Mr. Saleeba. No, sir.
    Mr. Varrone. No, sir.
    Senator Thurmond. You have all answered no.
    Gentlemen, I have heard reports of bounties being offered 
for Federal agents serving on the Southwest border. I have also 
heard reports of bounties being offered for canines that are 
particularly effective in detecting narcotics. Are these 
allegations true, and do bounties offered for canines include a 
bounty for the dog's handler?
    Mr. Stephens. From the FBI's perspective, I have heard, and 
we have collected intelligence, that there are bounties or 
incentives offered to people. To date, nobody has acted on it. 
We have taken some very strong preemptive measures to prevent 
that, but we are concerned that the Southwest border escalation 
of violence internally in the northern portion of Mexico 
against their own law enforcement people bodes ill for 
potential ramifications for our personnel working hand-in-hand 
with these people.
    Mr. Ledwith. Sir, from DEA's perspective, the answer is 
yes, there have been bounties offered for Federal law 
enforcement people. But as my colleague just stated, it is 
particularly germane to the Southwest border area, and we are 
increasingly concerned about the boldness of the traffickers 
and the violence and the fact that they are able to so 
successfully utilize this violence to intimidate Mexican 
federal law enforcement officials and kill those who are not 
cooperative. So, yes, sir, we are generally concerned.
    Mr. Saleeba. Yes, sir, I agree with that. The Secret 
Service and the intelligence community in general has been 
aware for some time of an existing bounty directed against 
Federal law enforcement officers doing work along the Southwest 
border and in Mexico. And that information has been passed 
along to all our agents and other agencies.
    Mr. Varrone. Yes, sir, we routinely share the information 
if it is threats against Federal officers or State and local on 
the Southwest border. And by virtue of having a large workforce 
on the Southwest border, Customs officers and canine officers--
and, in fact, in one case theyput a bounty on one of our 
canines, named Crowbar, who had much success in identifying shipments 
of marijuana that were coming through San Ysidro, CA.
    So, yes, we do experience it and we do respond to each one 
of these threats seriously. Some of the counter-measures, if 
you will--the shotguns, the pistol changes, and the internal 
policies--are some of the measures which the Commissioner has 
implemented to address them.
    Senator Thurmond. Mr. Varrone, would a law criminalizing 
the injuring or killing of police animals be helpful in 
protecting your canines?
    Mr. Varrone. Well, I don't think at this time it is 
necessary because we haven't had one instance of it. I can say 
that we take all those threats seriously, whether it be against 
our officers or canines, and when it is proven, substantiated, 
we either move them to another area or provide them additional 
protection. I don't know that we necessarily need a law to 
protect the dogs.
    Senator Thurmond. Now, I have a question for all of you. 
How does your agency keep track of assaults and threats made 
against your personnel, and is any part of the Government 
responsible for keeping statistics concerning assaults against 
Federal law enforcement personnel?
    Mr. Stephens. We don't do an adequate job of keeping track 
of assaults on our own personnel. We have had some internal 
reorganization regarding privacy issues and the employee 
assistance program which in the short term has kind of 
prevented our ability to specifically track assaults on our 
personnel. But we do track serious assaults, use of deadly 
force, armed confrontations, and we track those for training 
purposes to adjust the techniques we use and the tools we use 
and to make modifications and changes along those lines.
    Mr. Ledwith. Yes, sir, DEA does track assaults against its 
agents or any other personnel employed by DEA. Our Inspections 
Service does that, and we also track assaults against our 
cooperating sources, our informants.
    Senator Thurmond. Senator Sessions, I am in full agreement 
with your active interest in this hearing, and thank you for 
it. U.S. attorney should prosecute assaults against Federal 
officers, and I intend to write a letter to Attorney General 
Reno regarding this matter.
    Senator Sessions. Thank you. I think that would be a good 
idea, Mr. Chairman.
    Senator Thurmond. And thank you for your fine 
participation.
    Senator Sessions. Thank you. Mr. Chairman, I would like to 
ask one more question. Could I do that before we finish?
    Senator Thurmond. Sure.
    Senator Sessions. I appreciate the comments about police 
officers, Mr. Ledwith, in Mexico and Colombia. Do you have the 
numbers of how many of those have been killed in recent years, 
any numbers in Mexico and Colombia, out trying to enforce drug 
laws in those countries?
    Mr. Ledwith. Well, sir, during the 3 years that I spent in 
Colombia from 1992 to 1995 during the Pablo Escobar-Cali cartel 
time, the Colombian National Police lost in excess of 300 men 
and women per year, many of whom were hunted down and actually 
assassinated. The government of Mexico is suffering terrible 
losses at this time with their federal officials being 
assassinated and murdered.
    There is a difference that I should point out. In the 
United States, many times we do lose police officers and we do 
lose agents, usually in an armed confrontation, very seldom in 
a cold, calculated assassination, and this is what we see 
occurring in Mexico, Colombia, and many other nations 
throughout the world.
    Senator Sessions. Well said. Have you seen anything that 
would indicate to you that that might be spreading across the 
border?
    Mr. Ledwith. Sir, there is intelligence indicating that 
that may very well spread across the border from Mexico.
    Senator Sessions. I guess the bounties, in a way, are 
similar to that kind of circumstance.
    Mr. Ledwith. Yes, sir, and the increasing boldness with 
which the traffickers in that part of Mexico are operating, the 
frequency with which they are assassinating police officers who 
are attempting to investigate them--I am deeply concerned that 
this may spread across the border.
    Senator Sessions. Well, I believe that a number of things 
have been done that have been effective. I know the violent 
crime task forces, Mr. Stephens--the FBI, with DEA and Customs 
and the Secret Service in Mobile, AL, has participated in 
those. I believe those help break up violent gangs. I believe 
the tough Federal drug laws have allowed us to prosecute and 
collapse whole organizations.
    Would you agree, Mr. Ledwith, based on your experience, 
that if you allow a drug-dealing gang to continue unmolested 
for years, it gets bigger, wealthier, and more violent and more 
dangerous?
    Mr. Ledwith. There is absolutely no question. If allowed to 
operate with impunity, they become exceptionally dangerous, 
powerful, and are something we have to prevent no matter how we 
do it.
    Senator Sessions. I was reading an article recently about 
an individual involved in 14 murders as part of a gang. That 
was here in Washington, was it not?
    Mr. Ledwith. Yes, sir.
    Senator Sessions. I remember a major cocaine distribution 
ring that was arrested in Mobile, AL, and I believe six or more 
had been involved previously in murders and were out on parole 
or had served their time. DEA is confronting that pretty 
directly on a daily basis. The people that are serious, big-
time drug dealers often have a history of violent crime, 
wouldn't you agree, Mr. Ledwith?
    Mr. Ledwith. Absolutely. This is my 32nd year in this 
business. In the old days, the method of violence was a 
beating. Today, the method of violence is murder. We have seen 
a significant escalation and we have seen many, many criminal 
enterprises, both within the United States and external to the 
United States, utilize murder, cold-blooded assassinations, as 
a method of enforcing their will.
    Senator Sessions. Would you agree that, for example, when 
Miami had gotten so out of control and they were using the MAC-
11's and automatic weapons, that intensive and aggressive 
investigation and prosecution of that violence in Miami and 
making it clear that any kind of shooting like that was going 
to be aggressively prosecuted--people would receive life 
without parole type sentences--that that helped break the back 
of the violence in Miami?
    Mr. Ledwith. Absolutely, sir. There is no question that 
effective law enforcement and swift and severe prosecutions are 
the best way to deal with that kind of violence.
    Senator Sessions. I say that because sometimes people don't 
think that what we do in law enforcement makes any difference, 
but there are examples after examples after examples where 
effective teamwork of Federal, State and local agencies have 
changed the climate of criminality in a community.
    I believe, Mr. Chairman, that the fact that we have got 
twice as many people in jail today as we did in 1990 is a major 
factor in the declining murder rate. If you allow these people 
that are out shooting people to continue to be on the street, 
they are going to continue to shoot people. I think every State 
in America is toughening up their laws with regard to violent 
crime, and we certainly need to be particularly vigilant in 
protecting our law enforcement officers.
    I know you respect them. There is no Senator in this body 
who has done more--as a matter of fact, you have done more to 
protect and enforce the laws in these United States than any 
Senator I know.
    The chairman was the leading spokesman for the Sentencing 
Guidelines and the mandatory sentences. Senator Thurmond led 
the battle for that and helped that commission get started. He 
was a leader in the tough Federal bail laws which makes the 
Federal system in many ways superior to others. The ability to 
deny bail to dangerous felons who are a risk of flight and the 
tough Federal gun laws and the mandatory sentences for people 
who use firearms all came during the years that the chairman 
led this committee and chaired it.
    So thank you, Mr. Chairman. Thank you for having this 
hearing.
    Senator Thurmond. Senator Sessions, I want to thank you for 
your effective participation in this hearing. You are always 
very helpful in what you do and we appreciate your good work.
    Now, I would like to place a statement by Senator Leahy and 
a statement by Senator Schumer in the record, if there is no 
objection.
    [The prepared statements of Senators Leahy and Schumer 
follow:]

 Prepared Statement of Hon. Patrick J. Leahy, a U.S. Senator From the 
                            State of Vermont

    I welcome all the witnesses to this hearing. We need to do a better 
job of supporting our Federal law enforcement officers and our State 
and local law enforcement officers and recognizing the conditions under 
which they serve. This is National Police Week. Yesterday marked the 
National Peace Officers' Memorial Service in which we remembered 
another 139 Federal, State and local officers who died in the line of 
duty. I thank Senator Thurmond and Senator Schumer for proceeding with 
this hearing and offer these thoughts on a number of matters of 
importance to law enforcement.

 POLITICAL LEADERS SHOULD NOT USE EXTREME RHETORIC AGAINST OUR FEDERAL 
                        LAW ENFORCEMENT OFFICERS

    As someone who served in law enforcement for eight years as the 
Chittenden County State's Attorney, I empathize with, respect and 
admire those who devote their careers to public safety. I took issue 
with the extreme rhetoric that some have used recently to attack our 
Federal law enforcement officers who helped return Elian Gonzalez to 
his father.
    For example, one of the Republican leaders in the House of 
Representatives was quoted as calling the officers of the U.S. 
Immigration and Naturalization Service, the U.S. Border Patrol, and the 
U.S. Marshals Service ``jack-booted thugs.'' And the Mayor of New York 
City called these dedicated public servants ``storm troopers.'' This 
extreme rhetoric only serves to degrade Federal law enforcement 
officers in the eyes of the public.
    Let none of us in the Congress, or those seeking to serve in 
Congress, contribute to an atmosphere of disrespect for law enforcement 
officers. No matter what your opinion of the law enforcement action in 
South Florida, we should all agree that these law enforcement officers 
were following orders and putting their lives on the line, which they 
do everyday. Let us treat law enforcement officers with the respect 
that enables officers to preserve the peace and protect the public.
    This harsh rhetoric by Republican public officials reminds me of 
similar harsh rhetoric used by the National Rifle Association. In April 
1995, Wayne La Pierre, Vice President of the NRA, sent a fund-raising 
letter to NRA members calling Federal law enforcement officers ``jack-
booted thugs'' who wear ``Nazi bucket helmets and black storm trooper 
uniforms.'' Mr. La Pierre was apparently referring to Federal Bureau of 
Investigation and Bureau of Alcohol, Tobacco and Firearms agents 
involved in law enforcement actions in Ruby Ridge, Idaho, and at the 
Branch Davidian compound in Waco, Texas.
    President George Bush, who was correctly outraged by this NRA 
rhetoric, promptly resigned from the NRA in protest. At the time in 
1995, President Bush wrote to the NRA: ``Your broadside against Federal 
agents deeply offends my own sense of decency and honor. * * * It 
indirectly slanders a wide array of government law enforcement 
officials, who are out there, day and night, laying their lives on the 
line for all of us.'' I praised President Bush for his actions in 1995 
and again recently.
    President Bush was right. This harsh rhetoric of calling Federal 
law enforcement officers ``jack-booted thugs'' and ``storm troopers'' 
should offend our sense of decency and honor. It is highly offensive 
and did not belong in any public debate on the reunion of Elian 
Gonzalez with his father, either. We are fortunate to have dedicated 
women and men throughout Federal law enforcement in this country who do 
a tremendous job in the most difficult of circumstances. They are 
examples of the hard-working public servants that make up the Federal 
government, who are too often maligned and unfairly disparaged. These 
are people with children and parents and friends. They deserve our 
respect, not personal insults.
    In countless incidents across the country everyday, Federal law 
enforcement officers, who are sworn to protect the public and enforce 
the law, are in danger. These law enforcement officers deserve our 
thanks and our respect. They do not deserve to be called ``jack-booted 
thugs'' and ``storm troopers.''
    I went to the Senate floor in the wake of those comments to join 
the Federal Law Enforcement Officers Association in condemning these 
insults against our nation's law enforcement officers. Any public 
official who used this harsh rhetoric owes our Federal law enforcement 
officers an apology. I regret that members of the majority party have 
not followed President Bush's example and condemned this extreme 
rhetoric.

            S. 2413, BULLETPROOF VEST GRANT PARTNERSHIP ACT

    This week is an annual occasion in which we pause to remember the 
Federal, State and local officers who gave their lives in the line of 
duty over the past year. It is a difficult week and an important week. 
It should be a productive week, as well.
    I said last week at the Judiciary Committee Business Meeting that 
the committee should be taking up and reporting S. 2413, the bill that 
I introduced with Senator Campbell and Senator Hatch to improve our 
Bulletproof Vest Grant Partnership Act by reauthorizing the program for 
another three years, raising the annual appropriation to $50 million 
and guaranteeing to jurisdictions with populations less than 100,000 a 
fair share of these resources. This program hasbeen very helpful in 
offering Federal assistance to help protect State and local officers in 
concrete ways. It is an extraordinarily successful program and it 
should be extended and expanded. I thank President Clinton for his 
support and for calling for enactment of this measure during his 
remarks at the National Peace Officers' Memorial Service yesterday. I 
hope that when the Committee meets later this week, Senator Hatch will 
see fit to include this measure on the agenda and that the Committee 
will act favorably on it.
    In addition, I look forward to enacting additional measures that 
protect and assist State and local law enforcement. In particular, I 
was extremely disappointed last year when an anonymous Republican 
objection prevented S. 521, my bill to improve the Bulletproof Vest 
Grant Partnership Act, from passing. This bill would allow the Attorney 
General to waive or reduce the matching fund requirement for assisting 
poor and rural law enforcement units to provide this life-saving 
equipment to officers and prevent injury and death. I cannot understand 
why anyone would want to oppose that effort.

            S. 1360, SECRET SERVICE PROTECTIVE PRIVILEGE ACT

    Despite their statements a couple of years ago, bemoaning the 
misguided efforts of Independent Counsel Kenneth Starr to compel Secret 
Service agents to answer questions about what may have observed or 
overheard while protecting the life of the President, the majority has 
taken no action to correct this situation.
    Few national interests are more compelling than protecting the life 
of the President of the United States. The Supreme Court has said that 
the nation has ``an overwhelming interest in protecting the safety of 
its Chief Executive and in allowing him to perform his duties without 
interference from threats of physical violence.'' [Watts v. United 
States, 394 U.S. 705, 707 (1969).] What is at stake is not merely the 
safety of one person--it is the ability of the executive branch to 
function in an effective and orderly fashion, and the capacity of the 
United States to respond to threats and crises. Think of the shock 
waves that rocked the world in November 1963 when President Kennedy was 
assassinated. The assassination of a president has international 
repercussions and threatens the security and future of the entire 
nation.
    The threat to our national security and to our democracy extends 
beyond the life of the president to those in direct line of the office 
of the president--the Vice President, the president-elect, and the Vice 
President elect. By Act of Congress, these officials are required to 
accept the protection of the Secret Service--they may not turn it down. 
This statutory mandate reflects the critical importance that Congress 
has attached to the physical safety of these officials.
    Congress has also charged the Secret Service with responsibility 
for protecting visiting heads of foreign states and foreign 
governments. The assassination of a foreign head of state on American 
soil could be catastrophic from a foreign relations standpoint and 
could seriously threaten national security.
    That is why I introduced the Secret Service Protective Privilege 
Act (S. 1360) last year to enhance the Secret Service's ability to 
protect these officials, and the nation, from the risk of 
assassination. It would do this by facilitating the relationship of 
trust between these officials and their Secret Service protectors that 
is essential to the Service's protective strategy. I am disappointed 
that the majority has paid no attention to this matter of national 
security.

                S. 39, PUBLIC SAFETY MEDAL OF VALOR ACT

    Finally, I am disappointed that the Congress has not taken final 
action on the Public Safety Medal of Valor Act (S. 39) championed by 
Senator Stevens. The awarding of a medal for extraordinary valor shown 
by law enforcement officers every year would be a good way to draw 
attention to the service provided every day by officers all across this 
country. That bill passed the Senate a year ago by unanimous consent. I 
cosponsored the bill along with 28 others. For the past year, the House 
has not found the time to pass it. Yesterday, the President announced 
that he will explore ways to proceed to honor valor by our public 
safety officers through executive action if Congress continues to stall 
action on this bill. I hope that Congress will finally act on S. 39 
this week and send it to the President for his signature.
s. 1638, educational benefits to dependents of law enforcement officers
    I had urged the Senate, at long last, to take action on S. 1638, a 
bill this Committee reported last February to extend educational 
benefits retroactively to the families of law enforcement officers 
killed in the line of duty before 1992. The effort on that bill has 
been led by Senators Ashcroft and Robb. I support extending educational 
assistance benefits to the families of public safety officers who died 
in the line of duty. I supported those efforts when we acted for 
Federal officers' families back in 1996 and when we extended those 
benefits to State and local officers' families in 1998.
    A number of us joined with Senator Specter and Senator Kohl back in 
1996 to pass the Federal Law Enforcement Dependents Assistance Act. I 
recall that Senator Kennedy, Senator Biden, Senator Feinstein, Senator 
Thurmond, Senator Grassley, Senator Simpson and Senator Hatch 
cosponsored that effort, as well. Our efforts grew out of the Ruby 
Ridge investigation that was led by Senators Specter and Kohl and our 
common concern to help the family of U.S. Marshal Bill Degan and the 
families of other Federal officers killed in the line of duty.
    At that time we were unable to gain the consensus needed to 
authorize these education benefits to State and local law enforcement 
officers. Some thought that would cost too much.
    We came back in 1997 and 1998 and were able to pass the Public 
Safety Officers Educational Benefits Assistance Act to extend those 
benefits to State and local public safety officers. We were led in this 
effort by Senators Specter and Biden and, again, a number of members of 
this Committee cosponsored that effort--I recall in particular, Senator 
Kennedy, Senator Durbin and Senator Abraham.
    We were told in February that the estimated cost of this expansion 
would be $125 million. Since then we have received a significantly 
revised estimate from the CBO greatly diminishing the estimated costs. 
I do not know whether CBO was wrong in February or is wrong now, but I 
commend Senator Ashcroft and all the sponsors of this measure for their 
willingness to make this investment and authorize these payments.
    I have asked whether we would do better if instead of moving the 
eligibility dates back approximately between 14 and 19 years, we remove 
them altogether. I do not want some to be penalized by the arbitrary 
selection of the eligibility date. In this regard, I have urged an 
amendment to take the eligibility dates back to at least January 1978, 
in order to cover at least one, and possibly more, Vermont families who 
suffered the loss of a family member who was a public safety officer 
earlier that year. The family of Arnold Magoon, a Vermont Game Warden, 
should not be penalized again because he died on April 27 and not after 
May 1 or October 1 of 1978.
    I said in February when the Committee considered this measure that 
I would work to speed its passage and to help achieve its goal of 
making these assistance payments as comprehensive as possible. As soon 
as the majority got around to suggesting consideration of this matter 
on Wednesday, May 10, I cleared it for consideration so that we could 
proceed. I am glad to be able to report that the Senate passed the 
measure yesterday with an amendment I proposed to set the eligibility 
date so as to include the Magoon family.

                               CONCLUSION

    These are some of the important legislative matters that the 
Congress should address to help our Federal and State law enforcement 
officers. I am glad that we finally passed S. 1638 on Monday. I urge 
the Senate and the House to continue to work on all those issues so 
that we can enact the reauthorization of the Bulletproof Vest Grant 
Partnership Act and the Public Safety Medal of Valor Act before the end 
of this week, as well as make progress on the issue of restoring the 
Secret Service privilege. We should strive for constructive action 
rather than half-baked rhetoric.

                               __________

Prepared Statement of Hon. Charles E. Schumer, a U.S. Senator From the 
                           State of New York

    This is National Police Week and I join my colleagues in honoring 
law enforcement officers and the job they do under the most difficult 
of circumstances. Our nation has no greater heroes than those willing 
to put their lives on the line to serve and protect.
    Given the importance of the job accomplished by those in law 
enforcement, it is incumbent on us in Congress both to fully inform 
ourselves about the dangers that confront federal officers and to do 
what we can to eliminate them. Those threats have evolved and only 
become more deadly over the years.
    Of course, the gravest and most immediate hazard facing police is 
the epidemic of gun violence ravaging communities across America. The 
surest way to protect those who protect us is to enact common sense gun 
reforms that will begin to take weapons out of the hands of criminals 
who use them to terrorize our streets and our homes and our schools.
    There are no firmer supporters of reforming our nation's gun laws 
than the police we honor this week, and I join with them in striving to 
rid our society of senseless gun-related violence that is first and 
foremost aimed at officers. Police organizations of every stripe have 
come out in support of gun reform legislation, including the Federal 
Law Enforcement Officers Association, the National Sheriff's 
Association, the Major Cities Chiefs Organization, the Police 
Foundation, and many others.
    It is also true that criminals today can call upon ever more 
sophisticated and wide-ranging networks of technology and supporters in 
other countries. This capacity, which was minimal even a few years ago, 
enhances the threat posed by law-breakers to all of us, and in 
particular to the law enforcement personnel attempting to track and 
apprehend criminals worldwide. I have in mind international terrorists 
like Osama Bin Laden, who direct attacks against Americans from the 
farthest reaches of the globe; narco-terrorists in Mexico and 
elsewhere, who have killed and wounded DEA agents and use the global 
financial system to launder their ill-gotten gains; and home-grown 
networks in America, which use new methods of communication to foster 
hate and incite people to commit violence against government workers.
    So, Mr. Chairman, I look forward to hearing the testimony and 
taking this opportunity to listen and learn from the men and women who 
know firsthand what threats law enforcement officers face and how we 
here can help defuse them.

    Senator Thurmond. We will leave the record open for one 
week for any follow-up questions anyone has.
    I want to take this opportunity to thank you gentlemen who 
have participated in this hearing for being here today and 
presenting such effective testimony.
    Unless there is anything further to come up, we now stand 
adjourned.
    [Whereupon, at 3:04 p.m., the subcommittee was adjourned.]
                                APPENDIX

                              ----------                              


                 Additional Submissions for the Record

                              ----------                              


                        U.S. Department of Justice,
                  Office of the Assistant Attorney General,
                                   Washington, DC, August 15, 2000.
Hon. Strom Thurmond,
Chairman, Subcommittee on Criminal Justice Oversight, Committee on the 
        Judiciary, U.S. Senate, Washington, DC.
    Dear Mr. Chairman: Thank you for your letter to the Attorney 
General, signed with Senator Sessions, requesting information 
concerning prosecutions for assaults on federal officers. I am writing 
separately to Senator Sessions. I apologize for our delay in 
responding.
    You requested statistics reflecting the number of cases involving 
assaults on federal officers that have been referred to United States 
Attorneys for prosecution during the past 10 years, by agency name and 
year, and the number of such cases that were prosecuted. Enclosed is a 
statistical report from the United States Attorneys' central case 
management system that displays national data on referred and filed 
criminal cases, by referring agency and fiscal years 1999-2000, under 
any of the following statutes:
    18 U.S.C. Sec. 111--assaulting, resisting, or impeding certain 
officers or employees;
    18 U.S.C. Sec. 115--influencing, impeding, or retaliating against a 
federal official by threatening or injuring a family member;
    18 U.S.C. Sec. 1114--protection of officers and employees of the 
United States (murder, manslaughter, attempted murder);
    18 U.S.C. Sec. 2231--assault or resistance (against any person 
authorized to serve or execute search warrants or to make searches and 
seizures).
    You should be aware that the enclosed statistics do not necessarily 
reflect the totality of cases in which an assault on a federal officer 
occurred. It is not uncommon for a defendant who may have committed 
such an assault as part of a larger offense to be charged with the 
crime for which a greater sentence can be imposed under federal 
guidelines. In addition, assaults not charged are often considered at 
sentencing, and can result in upward departures in defendants' 
sentences.
    For your information, I am also enclosing a copy of a letter from 
United States Attorney Mark T. Calloway, who chairs the Attorney 
General's Advisory Committee (AGAC), to Commissioner Raymond W. Kelly, 
United States Customs Service. As you know, Commissioner Kelly 
expressed his concerns about the prosecution of assault cases involving 
federal officers in a March 29, 2000, letter to United States Attorney 
Calloway. The enclosed letter invited Mr. Kelly to discuss his concerns 
at the AGAC's May meeting, which, unfortunately, he was unable to 
attend. However, Acting Assistant Commissioner John Varrone and 
Associate Chief Counsel Seve Basha of the Customs Service met with the 
AGAC on July 25 to discuss the issues Mr. Kelly has raised.
    I hope the enclosed information is helpful to you. If you have 
questions or wish to discuss this matter further, please do not 
hesitate to contact this office.
            Sincerely,
                                              Robert Raben,
                                     Office of Legislative Affairs.
    Enclosures.
    [GRAPHIC] [TIFF OMITTED] T3137A.001
    
                    U.S. Department of Justice,    
                                     U.S. Attorney,
                        Western District of North Carolina,
                                     Charlotte, NC, April 26, 2000.
Re your letter of March 29, 2000.

Mr. Raymond W. Kelly,
Commissioner, U.S. Customs Service,
Washington, DC.
    Dear Commissioner Kelly: Thank you for your letter of March 29, 
2000, concerning the prosecution of assaults on U.S. Customs agents. I 
have placed the matter on the May 2000 agenda for the Attorney 
General's Advisory Committee. We would welcome the opportunity to meet 
with you to talk about the concerns expressed in your letter, as well 
as other topics such as how the new Customs' search policy is working. 
I will ask Judy Beeman, AGAC Liaison, to get in touch with your office 
concerning the scheduling of this matter at the May AGAC meeting.
    As a practical matter, I have found that solutions to concerns, 
such as the ones raised in your letter, are best worked out at the 
local level. If the prosecution of assaults on federal agents is 
important to a SAC or RAC in my district, it becomes important to me 
for I want to go to bat for the agents who investigate our cases. To 
that end, I would suggest that one avenue the Customs Service may want 
to consider is having the SAC or RAC in each district meet with the 
U.S. Attorney and/or the Criminal Chief to talk about the prosecution 
of such assaults, and how those decisions are made. I believe you will 
have much more success working it out on the local level, than by 
trying to implement a national policy that does not take into account 
the particular characteristics and workload of the district, as well as 
the discretion granted to United States Attorneys.
    As always, please feel free to give me a call if I can be of 
assistance to you. My direct line is (704) 338-3101. I hope you will be 
able to join us at our May AGAC meeting.
            Sincerely,
                                          Mark T. Calloway,
                      Chair, Attorney General's Advisory Committee.
                               __________
                                       U.S. Senate,
                                Committee on the Judiciary,
                                      Washington, DC, May 17, 2000.
Hon. Janet Reno,
Attorney General, Department of Justice,
Washington, DC.
    Dear Madam Attorney General: The ``Police Week'' ceremonies taking 
place at various locations around Washington this week are a solemn 
reminder of the dangers those who serve in law enforcement face on a 
day to day basis. To help highlight the fact that federal agents face 
equally high risks as local, county, and state officers, a hearing was 
held today before the Senate Subcommittee on Criminal Justice Oversight 
regarding threats to federal law enforcement officers.
    We were very concerned to discover that there was a consensus 
expressed by representatives of the agencies testifying that the 
contemporary criminal is more prone toward violence, that assaults 
against federal agents is on the rise, and that the Department of 
Justice should be doing more to aggressively prosecute cases of those 
accused of assaulting a federal officer. It was the third revelation 
that was most shocking, disheartening, and worrisome. An assault 
against a federal officer is more than a physical attack against an 
individual, it is an assault against our system of laws.
    As an exercise of our subcommittee's oversight responsibility, we 
request that you provide us with statistics on how many cases each 
federal law enforcement agency has referred to the United States 
Attorney for prosecution over the past ten years and how many of these 
referred cases were prosecuted. Please separate the statistics by 
agency and year.
    We know that you are a supporter of law enforcement and we are 
certain that you share our concern that we do all we can for those who 
work in this very demanding profession. The job our agents and officers 
do is dangerous enough, sending a signal that using force against a 
federal agent may go unpunished is an impediment that they need not 
face. We urge you to direct your United States Attorneys to make 
prosecuting assaults against federal law enforcement officials one of 
their top priorities, and that you also implement a way to monitor how 
frequently they actually bring such prosecutions.
    Thank you for your attention to this matter.
    With kindest regards and best wishes,
            Sincerely,
                                   Jeff Sessions,
                                   Strom Thurmond,
                                           Chairman, Subcommittee on 
                                               Criminal Justice 
                                               Oversight.
[GRAPHIC] [TIFF OMITTED] T3137A.002
                                          
[GRAPHIC] [TIFF OMITTED] T3137A.003
                                               

</pre></body></html>
